<html>
<title> - HOW ILLEGAL IMMIGRATION IMPACTS CONSTITUENCIES: PERSPECTIVES FROM MEMBERS OF CONGRESS (PART I)</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
   HOW ILLEGAL IMMIGRATION IMPACTS CONSTITUENCIES: PERSPECTIVES FROM 
                      MEMBERS OF CONGRESS (PART I)

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 10, 2005

                               __________

                           Serial No. 109-76

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-507                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                         Allison Beach, Counsel

                 Luke Bellocchi, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           NOVEMBER 10, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     2
The Honorable Linda Sanchez, a Representative in Congress from 
  the State of California, and Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    28

                               WITNESSES

The Honorable Stevan Pearce, a Representative in Congress from 
  the State of New Mexico
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
The Honorable Henry Bonilla, a Representative in Congress from 
  the State of Texas
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
The Honorable Luis Gutierrez, a Representative in Congress from 
  the State of Illinois
  Oral Testimony.................................................    23
  Prepared Statement.............................................    26

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Abner Culberson, a 
  Representative in Congress from the State of Texas.............    55
Editorials Supporting Comprehensive Immigration Reform and the 
  Secure America and Orderly Immigration Act of 2005, submitted 
  by the Honorable Luis V. Gutierrez.............................    59


   HOW ILLEGAL IMMIGRATION IMPACTS CONSTITUENCIES: PERSPECTIVES FROM 
                      MEMBERS OF CONGRESS (PART I)

                              ----------                              


                      THURSDAY, NOVEMBER 10, 2005

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:09 p.m., in 
Room 2237, Rayburn House Office Building, the Honorable John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order. As a 
result of the necessity to accommodate schedules for members of 
the panel that will be leaving, we'll start at this time.
    This hearing is the first in a series of hearings 
concerning the impact of illegal immigration on local 
constituencies, and who better to explain what is going on 
around the country than Members of Congress from impacted 
areas.
    Today, we have three Members whose districts are actually 
on or near the border with Mexico and New Mexico and Texas, and 
we also have our colleague from Chicago.
    It is appropriate to begin this hearing series with an 
examination mainly of those border districts because they bear 
the brunt of much illegal alien traffic, even for illegal 
aliens who settle elsewhere.
    Next week, we plan to have Members from North Carolina, 
California, and New York, Georgia, and other parts of the 
country. Each of these Members and their districts have been 
heavily impacted by the flow and settlement of illegal aliens. 
Cities and towns around the country are negatively impacted by 
the heavy toll on infrastructure, the costs of emergency and 
non-emergency health care, primary and secondary education, 
and, of course, the loss of jobs to our American population.
    In addition, there is social impact in the form of 
additional crime, high populations, and damage to the 
environment.
    We should also not forget the national security danger to 
the country of having an estimated 10 million illegal aliens in 
the country, when no one knows who they are and what their 
intent is.
    Surely, for most of them, they intend to work and perhaps 
settle here. But a small handful of undocumented illegal aliens 
may pose the danger of terrorists attacking our country once 
again.
    If there is something Members of Congress can agree on, it 
is perhaps that illegal alien situations should be brought 
under control.
    Before Congress decides on legislation to gain control over 
those illegal aliens who are here to work, we must look at the 
overall impact to our constituents so that any problems can be 
addressed in that legislation and not be ignored.
    Do illegal aliens lower wages for Americans? We examined 
this at a hearing on this issue earlier this year. If they 
arguably provide cheaper goods for consumers, is the cost of 
their work here worth the benefit? Will the taxes collected 
from illegal workers cover the cost in public subsidies and 
benefits that American taxpayers have been paying? What is the 
cost for infrastructure? What is the cost for emergency care 
for illegal aliens? What is the cost of increased crime and 
population? Do counties that border Mexico bear the lion's 
share of these costs?
    For the border States, the cost of even legal traffic on 
infrastructure is enormous. Please look at the chart on the 
wall to my left, your right, and you will see that last year 
121 million passenger vehicles and 11 million trucks legally 
crossed land borders with 326 million passengers.
    The Department of Transportation reported in 2003 that the 
number of persons entering the U.S. legally was 33.7 million at 
the Arizona border; 90.5 million at the California border; 1.8 
million at the New Mexico border; and 119.9 million at the 
Texas border.
    In FY 2000, Border Patrol agents apprehended almost 1.7 
million persons for illegally entering the country.
    Last year, the Border Patrol apprehended 1.16 million. The 
Border Patrol in the Tucson Sector alone apprehended 230,000 
illegal aliens in 2004.
    The cost of emergency care is likewise enormous for border 
States as well. The U.S.-Mexico Border Counties Coalition 
estimates that more than $200 million in 2000 was spent by 
border counties for undocumented alien health care.
    And for the Members of the Committee, a chart showing those 
counties affected is to our right.
    The American Hospital Association reported that Southwest 
border hospitals reported uncompensated care totaling nearly 
$832 million in the year 2000.
    Any increased crime rates due to illegal immigration is 
both a social and an economic cost. The Federal Reserve Bank of 
Dallas conducted a study in March of 2003 entitled ``The Impact 
of Illegal Immigration and Enforcement on Border Crime Rates.''
    As you can see from these projected charts, it found that 
border enforcement is significantly negatively correlated to 
violent crime rates and poverty crime rates in Southwest border 
counties. My chart to the right shows.
    Instead of going over many statistics myself, let me allow 
the witness Members to tell the story of their own districts in 
their own words since they know the local conditions better.
    At this time, I yield now to the Ranking Member of the 
Subcommittee, Ms. Jackson Lee, for purposes of an opening 
statement.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. You're 
very kind, and I thank the witnesses, my colleagues, for their 
presence. I notice that Texas is quite well represented this 
morning--or this afternoon. Let me thank them and let me also 
thank Mr. Gutierrez for his time. He serves in a very important 
capacity, and we welcome his insight on this very important 
issue.
    I want us to discern the truth, and I hope as my colleagues 
make their presentation in the backdrop of their minds will be 
the longstanding principle that we are a nation of laws, and we 
are a nation of immigrants.
    I can't imagine that anyone could testify to their absolute 
presence in the United States, short of Native Americans. And 
so as we proceed on the question of how illegal immigration 
impacts constituencies, let us walk gingerly, because I'm 
reminded of the 1800's and the early 1900's, when large 
migration of immigrants came to the United States--and I would 
venture to challenge my Chairman and my colleagues to be able 
to document that every single one of those individuals came 
here in legal status.
    But what we do know is that those individuals provided--
were provided an opportunity to access legalization, and 
ultimately provided the contributions necessary to build a 
great and powerful and wonderful America.
    It's important to maintain a proper perspective on this 
subject. We must not lose sight of the fact that we are talking 
about people, although some undocumented immigrants come to the 
United States for untoward purposes, illegal immigration 
consists primarily of people who are coming to the United 
States to seek a better life.
    As I make that comment, let me say that I join my 
colleagues in accepting the responsibility and the challenge of 
border security. It must be done in a manner that shows the 
American people that we mean business, and that we are working 
with our allies and neighbors to mean business.
    And so, strengthening our Border Patrol agents, providing 
them with the equipment that they need, ensuring that their 
necessary resources--detention beds--to protect the Nation in 
the instance of OTMs that come and do not then meet their 
requirements in terms of going to their court appointment is an 
absolute imperative.
    But at the same time, we must find a way to reach America 
so that they can understand the balance, the prosperity, and 
the generosity that has occurred in the United States because 
of immigrants.
    This point is illustrated by an observation that Stanley 
Mailman and Steve Yaylov made recently on the term ``illegal 
alien.'' They said an undocumented alien performing 
construction work is not an outlaw engaged in illegal activity 
such as bookmaking or burglary. Rather, the work is lawful and 
legitimate. It simply happens to be work for which the alien is 
ineligible or disqualified.
    That is cited in undocumented workers seeking personal 
injury compensation.
    America was founded by immigrants seeking freedom and 
opportunity. It created new jobs by establishing new 
businesses, spending their incomes on American goods and 
services, paying taxes, and raising the productivity of the 
United States businesses.
    Throughout American history, immigrants have helped build 
American cities, towns, farms, businesses, and cultural 
institutions. Unfortunately, the presence of millions of 
undocumented workers in our communities also has had in the 
past negative consequences.
    Our failed immigration policies have encouraged employers 
who use foreign workers to lower labor standards and working 
conditions for all who labor in the United States--citizens and 
lawful permanent of the United States, as well as undocumented 
workers.
    We need an increase in the minimum wage. We need to ensure 
that the prevailing wages are paid. We also need to find out 
how we can fix our broken health system, and I can assure you 
that there are immigrants in my community, some undocumented, 
who are willing to pay for their health care. We've just got to 
put a system in place.
    Our current legal framework also makes it nearly impossible 
for many immigrant workers, particularly the undocumented to 
exercise their legal rights. Fear of deportation, fear of 
losing their livelihoods is enough to silence workers. This 
encourages such unscrupulous employers to hire and exploit 
undocumented workers instead of hiring American workers.
    We must reinforce the value of American workers, and we 
must break the cartels' backs who bring in unsuspecting and 
victimized individuals who are attempting to cross the border 
utilized by mules and others who are bringing them in in 
dangerous conditions. We must stop the devastation of Victoria, 
Texas. It must not happen again.
    We must also recognize the U.S. Department of Labor has 
determined that the poultry industry, nearly half of which 
consists of immigrant workers, has been as much as 100 percent 
out of compliance with Federal wage and hour laws. Also the 
Labor Department estimates that more than half of the country's 
garment factories violate wage and hour laws and more than 75 
percent have violated health and safety laws.
    Workplaces that are dangerous for immigrant workers are 
equally dangerous for those in the United States.
    Let me also say that collectively we recognize this 
problem. Mr. Chairman, I am hoping that, as we listen to the 
testimony, it will be balanced.
    I am gratified for the teamwork that many of us have 
engaged with our other colleagues, particularly, for example, 
in the area of Katrina, when we saw that there were some 
conflicts between American workers and undocumented, it was the 
combination of Members of the Congressional Black Caucus and 
the Hispanic Caucus to come to work together to ensure that the 
laws are not broken and that we address those issues and that 
American workers are protected.
    We can work together, but we cannot work together in a 
manner that scapegoats us and does not, if you will, Mr. 
Chairman, balance the good and the bad and the call to the 
United States to address the question of comprehensive 
immigration reform.
    With that I yield back, and welcome the panelists this 
afternoon.
    Mr. Hostettler. I thank the gentlelady. Without objection, 
all Members' opening statements will be made a part of the 
record. We generally have opening statements by Members of the 
Subcommittee, but given the time constraints of our panel 
members, we will move into introduction of the panel members.
    First of all, Congressman Henry Bonilla represents the 23rd 
District of Texas, which spans close to 800 miles of the 
international border with Mexico.
    Congressman Bonilla was elected to Congress in 1992, which 
marked the first time a Hispanic Republican was elected to 
Congress from Texas. As Member of the House Appropriations 
Committee, he chairs the Subcommittee on Agriculture, and sits 
on the Subcommittees on Foreign Operations and Defense.
    Prior to his election to Congress, most of the 
Congressman's career was in television news. He started as a 
reporter in San Antonio, Texas, and then became a producer for 
several stations throughout the country. Most recently, he was 
executive producer for public affairs at KENS in San Antonio.
    Congressman Bonilla earned a bachelor of journalism degree 
from the University of Texas at Austin.
    Congressman John Culberson has represented the Seventh 
District of Texas since 2000. Congressman Culberson serves on 
the House Appropriations Committee. He is a Member of the 
Subcommittee on Transportation and the Subcommittee on Science, 
State, Justice, and NASA. He is also a part of the Republican 
Whip Team.
    Prior to his election to Congress, John Culberson served in 
the Texas House of Representatives for 14 years. He was elected 
to the legislature while he was a law student. During that 
period, he practiced law as a civil defense attorney. He has 
worked in political consulting and advertising.
    Congressman Culberson earned his Bachelor of Arts degree in 
history from Southern Methodist University, and his J.D. degree 
from South Texas College of Law in Houston.
    Congressman Stevan Pearce is serving his second term in 
Congress, representing the Second District of New Mexico. He 
serves on the Homeland Security, Financial Services, and 
Resources Committees.
    Formerly, Congressman Pearce was elected to the New Mexico 
House of Representatives in 1996, and reelected in 1998.
    While in the legislature, he served as Republican Caucus 
Chairman. He and his wife owned and operated Lee Fishing Tools, 
an oilfield services firm. They were honored by the Association 
of Commerce and Industry with an award for outstanding business 
in New Mexico. Additionally, the Congressman served as a pilot 
in the United States Air Force, where he received the 
Distinguished Flying Cross and Air Medal.
    Congressman Pearce graduated from New Mexico State 
University with a B.B.A. degree in Economics, where he was also 
elected student body president. He holds an M.B.A. from Eastern 
New Mexico University as well.
    Congressman Luis Gutierrez has represented the Fourth 
District of Illinois since 1992. He currently serves on the 
Veterans Affairs Committee and the Financial Services 
Committee, where he is the Ranking Member of the Subcommittee 
on Oversight and Investigations. During his time in Congress, 
Congressman Gutierrez has focused his efforts on immigration 
issues, and he is Chairman of the Congressional Hispanic Caucus 
Task Force on Immigration.
    Prior to being elected to Congress, the Congressman worked 
as a teacher, social worker, community activist, and city 
official.
    He was elected in 1986 as Alderman for Chicago's 26th Ward. 
Congressman Gutierrez graduated from Northeastern Illinois 
University.
    Gentlemen, thank you very much for your time today. I 
know--I understand that a couple of you will have to be leaving 
early and so as a result of that, Congressman Pearce if you 
would give your opening statement. Without objection, your 
written statement will be a part of the record.
    We have 5-minute lights, as you are all aware, sitting 
generally on this side of the dais, and if you could stick to 
those as nearly as possible, I'd appreciate it.

 TESTIMONY OF THE HONORABLE STEVAN PEARCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you, Chairman Hostettler and Ranking 
Member Jackson Lee.
    I really feel the need to convey this idea that Jackson Lee 
suggested that we walk gingerly in this area. I represent a 
border district, 47 percent Hispanic, that recognizes the need 
for immigration. But we also have to recognize that immigration 
discussions must be broken into two halves--legal immigration 
and illegal immigration.
    The legal immigration we all know creates vitality, 
vibrancy, and brings us new ideas and new entrepreneurships.
    In August, I conducted 18 town hall meetings in my district 
on immigration. Where possible, I allowed the Hispano Chambers 
to moderate those discussions, to host the discussions, and we 
had very productive talks about what must be done.
    There is great consensus among all cultures that we should 
increase border security, but we also need to recognize that 
coming across to better one's life should not be a crime.
    Mr. Chairman, the entire U.S. border with Mexico in the 
State of New Mexico is in my congressional district. It's about 
180 miles long. There are three counties providing almost 
10,000 square miles for circumventing Border Patrol 
authorities, with 80 agents per shift. There's only one agent 
per 25 square miles in my district.
    To compound the problem, we had the Border Patrol reissue 
and reassign agents away from our district into Arizona and 
California, and it has caused then a funneling of activity to 
the southern border of New Mexico, with increases in detentions 
growing from 61,000 to over 76,000.
    The graphic that is up on slide two, if we get that up, 
shows the yellow school bus right there, which routinely brings 
people right to the border and then drops them off for staging 
to cross the border at night. We took the Homeland Security 
Department Committee to see this section of the border, and we 
watched that bus in operation bringing people in to deliver 
them for the illegal crossings.
    The Border Patrol has a lack of necessary surveillance 
capabilities, but unfortunately they also squandered, the 
Border Patrol has squandered apparently $239 million designated 
for the Integrated Surveillance Intelligence System, the ISIS 
system.
    The problem is four-fold. Basically, we have a problem with 
constituents. One of my constituents living in a border area 
recently was quoted, before you didn't call and report illegal 
immigrants on a property. You simply made them a sandwich, gave 
them a jug of water, and sent them on their way. But you did 
not fear for you life.
    Now, when they knock, you don't dare answer the door. The 
residents who live right on the border, in the area of that 
yellow bus, they have built their own fences. There's the one 
barricade--if we move back one slide--there's the one 
barricade, but then that won't stop the cattle and so our 
ranchers have built their own barbed wire fences on Government 
easement property and still they--the properties have--or the 
people on the other side of the border have stolen that fence. 
It's impossible for the ranchers to rebuild. The Border Patrol 
simply says you should stay away from your fence; that it's 
that dangerous, and, yet, they're then faced with losing their 
livestock.
    The impact on law enforcement officers is the second thing. 
Many times our local law enforcement officers have supplemented 
Border Patrol agencies, but I will tell you that many of our 
departments are two and three people, and Border Patrol has 
their expressed desire of driving the illegals away from the 
major thoroughfares onto the country roads and to be 
interdicted in rural areas, and that is putting an extreme 
strain on our particular sheriff's departments and police 
departments.
    The criminal activity that is being conducted by the 
illegal immigrants is also straining to capacity our ability to 
respond. The detention costs are left to the local providers. 
Fifty dollars per day. One county applied last year for over 
$60,000 in alien assistance program funding. Drug smuggling 
counter intelligence is so sophisticated the stakes have become 
so high for smugglers that they find out who the sheriffs are 
and who the deputies are, and they tell them simply if you get 
in our way, we're going to kill you first, and then we're going 
to kill your families. So we've had young people who are in the 
law enforcement business in this area who've packed up and 
left, and they've gone somewhere else to be in law enforcement.
    The--another impact that we face in the district is the 
extraordinary cost of Federal mandates to provide emergency 
care to illegal immigrants. Each year, thousands of immigrants 
require care for heat exhaustion and for the different problems 
that they've experienced, so we find those to be severely 
impacting us. Crushing caseloads for our judgeships. Three 
hundred and sixty-six cases per judgeship is what we 
experienced in our district; 89 is the national average.
    We have an additional problem that affects us--the 
inability to search into--to look at the long stretches of the 
border.
    Eventually, we must also, in addition to border security, 
Mr. Chairman, we must address the desire and reasons for people 
coming here. That tells us that we, at some point, are going to 
have to have a common sense guest worker program to deal with 
both the needs of workers, but also the reasons that people 
come here.
    Our policies have been somewhat hypocritical, indicating 
that we need you to come and work, but we're going to make it 
as difficult for you to do so as possible.
    And, Mr. Chairman, I also speak for a balanced 
comprehensive reform legislation, but also the need to reform 
immigration, where we have some commonsense guest worker 
program.
    I thank the Chairman and yield back the balance of my time.
    [The prepared statement of Mr. Pearce follows:]

Prepared Statement of the Honorable Stevan E. Pearce, a Representative 
                in Congress from the State of New Mexico

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. Thank you, Congressman Pearce.
    Congressman Bonilla?

 TESTIMONY OF THE HONORABLE HENRY BONILLA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Bonilla. Thank you, Chairman. As you pointed out in 
your introduction, Chairman, no Member of Congress represents a 
longer portion of the Mexican border than I do.
    It spans over 700 miles, and, Chairman, there is an 
invasion going on as we speak of OTMs, which is the primary 
concern that we have now. As you know, the Border Patrol 
categorizes other than Mexicans, OTMs, in a different category 
as they do Mexican illegals that come across the border. And 
while the Mexican illegal immigrant is a separate issue, and 
one that's been with us for a long time, the new invasion, of 
OTMs, is something that every American needs to be alarmed 
about.
    So far this year, almost 150,000 OTMs have come across the 
Southwest border. They come from the Mideast. They come from 
Asia. They come from South and Central America, which is where 
a lot of the gang problems are rooted now in our country. And 
in many cases, Mr. Chairman, the culture is such now because of 
the catch and release program that the Department of Homeland 
Security has undertaken where they come across the border, and 
they're given court papers, and it's a joke. They're asked to 
appear, and everyone has documented now that between 85 and 90 
percent never show up in court; and they use that as a free 
ticket to go into whatever city they need to go.
    And the culture now is pathetic, Mr. Chairman, with the 
fact that these OTMs, now the cultural message out there is 
that they come across the border looking for the Border Patrol 
agents. They don't even run from them anymore. We have this 
documented on photographs. In the last several months, we have 
actually had people out there with cameras, where they come 
across the Rio Grande, and they look for the Border Patrol; 
throw their hands up, knowing full well they're going to get a 
meal. They're going to get a place to sleep. They're going to 
get medical care. They're going to get asked a couple of 
questions. In many cases, they do not have the manpower to 
debrief any of these people, and then they set them free with 
court papers, claiming that they don't have the detention 
space.
    Now, there are lot of issues involved that present a danger 
to communities, and again let me also emphasize that that this 
is not an Hispanic issue or an Anglo issue or a Republican or 
Democrat issue. My colleague, Mr. Culberson, for example, who 
was just here a moment ago, has had many one-on-one 
conversations with border sheriffs, many of which are Members 
of the other party. They are members of the Latino ethnic 
groups, county commissioners and mayors. My mayor of Eagle 
Pass, for example, is right on the border, which is a 95 
percent plus Hispanic community, they're outraged at what our 
country is now allowing in terms of the OTM invasion in this 
country. And it's embarrassing as a federally elected 
representative to go down there and ride in a car with my 
sheriff in a border county or the mayor of a border town that 
look at us and say, ``why is our policy now allowing this to 
happen, and you're watching the OTMs walking down the street? 
And they're headed who knows where?''
    That's why this is not just an issue for those of us right 
on the border, it's an issue for Americans who live in New York 
and Colorado and California, because they've seen this 
incredible influx of OTMs now with the catch and release 
program.
    I've told every word of this to Secretary Chertoff on a 
couple of occasions, one in an official hearing in another 
Committee just a couple of weeks ago, and I asked him point 
blank: ``If I'm not mistaken, Congressman Sylvestre Reyes, who 
used to be a Border Patrol chief in El Paso once used tents to 
properly shut down the border in that community of El Paso. And 
he was a hero when he did that.''
    And again, my--our understanding is that he used temporary 
tents to humanely house illegals that were coming across the 
border, and it had an incredible impact not just on the influx 
of illegals at the time, but it also did several other things 
that helped the morale of the Border Patrol. It also--the 
cultural word on the street started to reverse itself, and the 
illegal immigration rate dramatically dropped, and it just 
worked all the way around.
    And I'm suggesting to Secretary Chertoff and I'm suggesting 
to any Member of Congress who has any say in this that we need 
to look at temporarily housing OTMs in tents, humanely.
    We're not talking about treating anybody inhumanely. But 
and quite frankly, if they had to spend some time in these 
tents, it would be probably better, a better facility than they 
would have slept in for the weeks on end that they spent coming 
across those dangerous mountainous and desert terrains that 
they had to traverse.
    So we're talking about doing this the right way, and also 
forcing, using the State Department, to try to force some of 
these countries who are not cooperative. You know a lot of 
people in this country talk about how we're not sensitive 
enough to illegal aliens.
    You know how inhumane and how much the Mexican Government 
tries to shut down illegal immigration on its southern border. 
It's an embarrassment. And then sometimes for these consuls to 
come across the border and say, hey, you're not doing enough to 
pander to illegal aliens. It is an absolute outrage.
    So anyone who researches the immigration policy of Mexico, 
for example--how do you think they're getting in here in the 
first place? They're coming from their southern border and 
coming up through our border. And they put absolutely no 
priority into stopping the flow of illegal aliens or in trying 
to help us get them back to their original countries where they 
come from.
    So, again, it's a complicated issue, and if we're able to 
do something to provide more detention beds, detention space, 
and more beds to house these OTMs, then we're going to have to 
talk about the legal system because that's overly taxed right 
now as well. And so we're going to be able to process them. So 
we're trying to be creative in looking at ways to do this.
    And as I have said in letters to the President, in letters 
to former Secretary Ridge, to people like that, if this was 
the--if the OTMs were being released in your neighborhood, 
you'd be doing something about it now. If they were walking 
through your neighborhood, you don't know what they're up to. 
The background checks are shallow at best, and to watch them 
come through, I just don't know how to put it more clearly, Mr. 
Chairman. It is an absolute outrage.
    [The prepared statement of Mr. Bonilla follows:]

Prepared Statement of the Honorable Henry Bonilla, a Representative in 
                    Congress from the State of Texas

    I represent more than 700 miles of the Texas/Mexico border. A few 
years ago the only people worried about border security were those 
living on the border. Times have changed. If you live in America and 
you're not worried about border security, you should be.
    It takes only one terrorist to slip into our country and increase 
the risk of a terrorist catastrophe. The threat is real. Hundreds of 
illegal aliens invade our border communities each day. Recent 
intelligence gives frightening insight into terrorist plans on the 
U.S./Mexico border. The Washington Post reported this month that Abu 
Ali, a man indicted in a plot to assassinate President George W. Bush, 
admitted his plan to bring members of an al Qaeda cell into the U.S. 
through Mexico. Just this spring U.S. officials revealed that Abu Musab 
al-Zarqawi, mastermind of several Iraq terrorist attacks, may be 
planning U.S. attacks and entering through the southern border. As long 
as our nation's borders are porous, we have an increased chance of 
terrorism on our own soil. Known terrorists, ruthless members of drug 
cartels and free loaders from around the world now use the southwest 
border as a revolving door.
    While many crossing the border are seeking work and a new life, 
many are also bringing violent crime and drugs into these small towns 
that are ill equipped to deal with the problem. Analysis of the latest 
Census data indicates Texas' illegal immigrant population is costing 
the state's taxpayers more than $4.7 billion per year for education, 
medical care and incarceration. Even if the estimated tax contributions 
of illegal immigrant workers are subtracted, net outlays still amount 
to more than $3.7 billion per year.

        <bullet>  Approximately 11.9% of children in the Texas public 
        school system are illegal aliens.

        <bullet>  Texan taxpayers pay approximately $520 million a year 
        for health care of illegal aliens.

        <bullet>  Finally, the uncompensated cost of incarcerating 
        illegal aliens in Texas state and county prisons amounts to 
        about $150 million a year. This figure does not include local 
        jail detention costs, related law enforcement and judicial 
        expenditures, nor the monetary costs of the crimes that led to 
        their incarceration in the first place.

    The problem is very immediate and personal to border communities. 
My proximity to the border gives me a first-hand appreciation of the 
problem. My border communities are small and rely on cross border 
commerce. Some of my constituents have family and friends on both sides 
of the border. Efficient LEGAL border crossings are essential to this 
region, but illegal border crossing have become an excessive burden.
    As of last month, an estimated 146,000 Non-Mexican Illegal Aliens 
(NMIAs) illegally crossed the US-Mexico border so far this year. Gangs 
and drug traffickers can easily overwhelm small, local law enforcement 
departments. Increased crime rates require the diversion of limited 
local funds from other important local needs impacting these 
communities economically and overburdening other social services. 
Imagine if this was happening in your town. You might feel under siege.
    I recognize there is no quick-fix. The issue must be addressed from 
several angles. That's exactly what I have been championing for years, 
and is the basis for a series of legislative initiatives that I been 
rolling out over the summer and this fall.
    The first step toward a safer, more secure border is basic 
preparedness. You can't secure a border without man-power, equipment 
and facilities. We've made great advances in this arena. Over the last 
year our Congress has added 1500 Border Patrol agents and 568 
Immigration and Customs Enforcement (ICE) agents to the force. We've 
also funded $61 million for border security technology, including 
surveillance and unmanned aerial vehicles. I can't deny that these are 
fantastic advances, but we cannot stop here.
    One of the border's largest pitfalls has been the amount of 
detention bed space. Border Patrol agents are doing their job by 
capturing illegal immigrants. But once captured they are almost 
immediately set free because there is not room for detention. 
Additional bed space allows our immigration system to do its job by 
keeping illegal immigrants behind bars and holding them until they can 
be properly deported. A major accomplishment occurred this past year 
when Congress funded 3870 detention beds for the U.S./Mexico border. 
This is a tremendous step toward filling a gaping hole in our system.
    However, 3,870 new detention beds will not fix the problem, and we 
need help now. Until your expedited removal program is fully 
implemented, DHS could erect temporary detention facilities using 
tents, and stop releasing illegal NIMAs immediately. This is not an 
untested idea either. Tents were used for temporary detention 
facilities in the mid-1980's in Southern Texas (McAllen Sector) and it 
was a huge success. Three things happened as soon as the tents went up.

        1)  The morale of the Border Patrol officers improved.

        2)  Assurance of detention had a dramatic deterrent effect and 
        attempted illegal border crossings went way down.

        3)  There was a resulting back-up of NIMAs on the Mexican side 
        of the border which caused the government of Mexico to take 
        action to reduce the number of NIMAs that they allowed into 
        their country. The bottom line is that the number of illegal 
        NIMAs reduced so much that the temporary detention facilities 
        could be removed in just over a year.

    Once the enforcement infrastructure is in place, the next step is 
reducing the backlog of illegal immigrants awaiting trial. This will be 
accomplished by streamlining the justice system for adjudication and 
removal of the illegal immigrants. Part of my legislative package will 
include funding for additional immigration trial attorneys and judges. 
The shortage of attorneys and judges is appalling. By filling these 
slots and making more available we can expedite the adjudication 
process and eliminate a log jam that has existed for years.
    The final phase of my border security proposal is to facilitate the 
deportation of illegal immigrants. Secretary Chertoff has pledged to 
implement an expedited removal program in all Border Patrol sectors. 
Expedited removal would allow the vast majority of illegal immigrants 
to be repatriated within days, rather than months and reduce judicial 
back-log. Although an expedited removal system was authorized last 
year, only three Border Patrol sectors have been approved by DHS to use 
the program so far. This simply is not enough. The Department of 
Homeland Security must make it a priority to implement an expedited 
removal program in every sector. Additionally, Secretary Chertoff 
recently wrote me a letter expressing concern over what he calls, ``an 
overstuffed removal pipeline.'' Delays in country clearances and 
related repatriation issues must be fixed to ensure the success of the 
expedited removal programs.
    The bottom line is that we live in an age where a porous border is 
a danger not only to border states, but to our entire nation. Every day 
that our border security is ignored, gangs, criminals and terrorists 
are finding new ways to exploit the weaknesses of our security systems. 
Terrorists are no longer playing by the same rules and neither should 
we.
    Ignoring this problem is like ignoring the war against terrorism. 
Those of us who live near the border cannot fight this war on our own. 
We must stand together as a nation to regain control of our border.

    Mr. Hostettler. Thank you, Congressman Bonilla.
    Congressman Gutierrez.

TESTIMONY OF THE HONORABLE LUIS GUTIERREZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Gutierrez. Good afternoon, Chairman Hostettler and 
Ranking Member Jackson Lee and Members of the Committee. It's a 
pleasure to be here this afternoon.
    I hope to use my time to try to debunk some of the myths 
and misinformation about the issue of our broken immigration 
system.
    I'll start with the following quote: ``Foreign immigration, 
which, in the past has added so much to the wealth, development 
of resources, and increase of power to the Nation, as the 
asylum of the oppressed of all nations should be fostered and 
encouraged by a liberal and just policy.''
    I couldn't agree more. Where did I read that? Was it in 
some policy papers produced by some progressive think tank? No.
    Was it in the editorial pages of a liberal leaning 
newspaper? No.
    Actually, those eloquent and forward looking words were the 
Republican platform of 1864, and I think we would be wise to 
pay close attention to that vision.
    While much has changed, the fundamental point of that 
statement rings true today. But if you want a more modern quote 
on the subject, Grover Norquist said just yesterday: 
``Immigration bashing is not a vote winner.''
    Look, I'm the first to agree that the immigration system in 
this nation is badly broken, but how did we get there? Is the 
answer that we deport 8 to 11 million undocumented individuals 
who are working and contributing to their communities? How much 
would that cost?
    According to a recent study for the Center for American 
Progress, it would cost more than $41 billion a year, and would 
exceed the entire budget of the Department of Homeland Security 
for fiscal year 2006 to begin to deport 10 to 12 million 
people.
    But don't trust my numbers or the numbers of that 
institution. Secretary Chertoff recently testified to the 
Senate Judiciary Committee that it would cost ``billions and 
billions and billions,'' adding that it would not be a feasible 
idea.
    More importantly, what would happen to our workforce and to 
our economy? In the factories of Chicago, immigrants today make 
up more than one out of every four workers. And without their 
labor, these factories might need to move elsewhere to find 
available workers, even overseas.
    And similar trends across our country's industries exist.
    Mexican immigrants today fill almost half of the blue 
collar, service-related and unskilled jobs in my city. It is 
not an exaggeration to say that our cities would grind to a 
halt without these workers.
    In fact, the Department of Labor, our own Department of 
Labor, President Bush's Department of Labor, estimates that the 
total number of jobs requiring short-term training will 
increase from 53 million in 2000 to 60 million in 2010, a net 
increase of 7.7 million jobs--low-skilled, very little 
training, low paying jobs. We're going to create 7.7 million.
    And the fact is Americans are simply unwilling to do these 
jobs. I don't blame them. Who would want these arduous, back 
breaking, dead end, low-paying jobs? I think President Reagan 
probably summed the issue up best when he described apples 
rotting on a tree.
    President Reagan said: ``It makes one wonder about the 
illegal alien fuss. Are great numbers of our unemployed really 
victims of the illegal alien invasion, or are those illegal 
tourists actually working, doing work that our own people won't 
do? One thing is certain in this hungry world. No regulation or 
law should be allowed if it results in crops rotting in our 
country, in our fields, for lack of harvesters.''
    And that's President Reagan, describing rotting apples on a 
tree.
    It is probably important to note today that more than 80 
percent of the apple pickers in Washington State are 
immigrants, and half of them, according to our Justice and 
Labor Departments, are illegally in the United States.
    Look at other industries, and you'll arrive at the same 
conclusion.
    Today, there are more than 700,000 undocumented restaurant 
workers; more than 250,000 undocumented household employees, 
and one million undocumented farm workers.
    So what should we do to ensure that we create an 
immigration policy that, as President Bush said, ``match 
willing foreign workers with willing employers when no American 
can be found to fill the job.'' I think the answer is 
comprehensive immigration reform, because our current policies 
are simply not working.
    A recent study by Princeton Professor Douglas Massey on the 
U.S. Border Patrol budget shows that its budget, the Border 
Patrol budget, has increased 10-fold since 1986. But as we all 
know, the number of illegal immigrants to the United States 
continues to increase.
    So I think we need to do more than simply throw money at 
the problem. We need to look more comprehensively and more 
strategically about this issue, because building a giant fence 
or sending more unfunded mandates to our States will not solve 
this problem. And the hard reality is these policies will only 
drive millions of undocumented workers further into our 
nation's underground.
    If we want to solve the challenges of immigrant health care 
and education, we need to bring these people out of the shadows 
so that they can be fully functioning and fully taxed members 
of our society, paying their fair share.
    I believe the solution lies in the fact that we must stop 
targeting Windex-wielding cleaning ladies, and start focusing 
our limited resources on targeting real terrorists and 
criminals.
    However, none of this will be successful unless we deal 
directly with the 8 to 11 million undocumented workers who are 
already here, living and working and contributing.
    And let me be clear here. These people should be penalized, 
but the punishment should fit the crime. They should be fined. 
They should be fingerprinted, and they should be thoroughly 
vetted so that we can have a more secure America.
    In terms of health care, a recent Harvard-Columbia 
University study showed that health care expenditures are 
substantially lower for immigrants than it is for U.S.-born 
persons. Just as undocumented workers--and I want to make this 
clear; these are not my--specifically, these are Social 
Security Department statistics. Just as undocumented workers 
help sustain our Social Security System with a subsidy of as 
much as $7 billion a year, these individuals are also helping 
to subsidize our nation's health care system through taxes they 
pay.
    Since the late 1980's, more than $189 billion in wages 
ended up recorded in the Social Security Administration's 
earnings suspense file. This file has grown by more than $50 
billion a year in the current decade, generating more than $6 
to $7 billion in Social Security tax revenue and $1.5 billion 
in Medicare taxes.
    In addition to these taxes, no storekeeper in Chicago has 
ever said, oh, you're undocumented. You don't have to pay a 
sales tax on your purchase. You don't have to pay gas tax, 
cigarette tax, property tax. They pay each and every one of 
these taxes, and I think that we as a Congress would be wise to 
take these factors into consideration as we carefully consider 
proposals such as those of Representative Jackson Lee and the 
one I introduced with Representatives Kolbe, Flake, and 
Senators McCain and Kennedy.
    And I would like to just wind up, Mr. Chairman and Ranking 
Member, by having to introduce to the record 153 editorials 
supporting comprehensive immigration reform, and the Secure 
America Orderly Immigration Act in 74 publications in 31 
States.
    The country is ready for comprehensive immigration reform.
    Thank you, Mr. Chairman.
    [The statement Mr. Gutierrez follows:]

Prepared Statement of the Honorable Luis V. Gutierrez, a Representative 
                 in Congress from the State of Illinois

    Good afternoon, Chairman Hostettler and Ranking Member Jackson Lee, 
and members of the committee.
    It is with great pleasure that I appear before this subcommittee 
today to share my views on how our immigrant community impacts the City 
of Chicago, where my Congressional District resides.
    I hope to use my time to try to debunk some of the myths and 
misinformation about the issue of immigration and to explain why we 
desperately need to reform our broken immigration system.
    I thought I'd start today by quoting something I recently read.
    And I quote . . . ``[F]oreign immigration, which in the past has 
added so much to the wealth, development of resources and increase of 
power to the nation, the asylum of the oppressed of all nations, should 
be fostered and encouraged by a liberal and just policy.''
    I could not agree more.
    But where did I read that? Was it in the policy papers produced by 
some progressive think tank? No. Was it in the editorial pages of a 
liberal-leaning newspaper? No.
    Actually, those eloquent and forward-looking words were from the 
Republican Party Platform in 1864 and I think we would be wise to pay 
close attention to those sentiments.
    But if you want a more modern, timely quote on the subject, Grover 
Norquist said yesterday, ``immigrant bashing is not a vote winner.''
    Look, I am the first to agree that our immigration system in this 
nation is badly broken and fixing it must be a top priority of 
Congress.
    But how do we get there?
    Is the answer that we deport the 8 to 11 million undocumented 
individuals in this nation who are working and contributing to their 
communities? What would a mass deportation even look like? How much 
would it cost?
    According to a recent study by the Center for American Progress, it 
would cost more than 41 billion dollars a year--and would exceed the 
entire budget of the Department of Homeland Security for Fiscal Year 
2006. And if you don't trust those numbers, Secretary Chertoff recently 
told the Senate Judiciary Committee that it would cost ``billions and 
billions and billions,'' adding that it would not be a feasible idea.
    And what if we were to spend these billions and billions of 
dollars, what would happen to our workforce and to our economy?
    In the factories of Chicago, immigrants today make up more than one 
out of every four workers, and without their labor these factories 
might need to move elsewhere to find available workers.
    And similar trends cut across various industries. Mexican 
immigrants today fill almost half of the blue-collar, service-related 
and unskilled jobs in our city. It is not an exaggeration to say that 
our city would grind to a halt without these workers.
    In fact, the Labor Department estimates that the total number of 
jobs requiring only short-term training will increase from 53.2 million 
in 2000 to 60.9 million by 2010, a net increase of 7.7 million jobs.
    And the fact is Americans are simply unwilling to do these jobs. I 
don't blame them. It is truly arduous labor. But these jobs need to get 
done to keep our economy growing and our communities thriving.
    I think President Reagan probably summed this issue up best back in 
1977, when he saw apples rotting on a tree because there were no local 
workers to pick them.
    He said, ``It makes one wonder about the illegal alien fuss. Are 
great numbers of our unemployed really victims of the illegal alien 
invasion or are those illegal tourists actually doing work our own 
people won't do? One thing is certain in this hungry world; no 
regulation or law should be allowed if it results in crops rotting in 
the fields for lack of harvesters.''
    It is probably important to note that today more than 80 percent of 
all apple pickers in Washington State are immigrant farm workers and 
over half of them are undocumented.
    So what should we do to ensure that we create an immigration system 
that, as President Bush said, can ``match willing foreign workers with 
willing employers when no Americans can be found to fill the job?''
    I think the answer is comprehensive immigration reform.
    I know there is a lot of talk about enforcement and border security 
provisions. And--don't get me wrong--it is extremely important, but it 
is only one part of the immigration equation.
    A recent study by Princeton Professor Douglas Massey on the U.S. 
Border Patrol Budget shows that its budget has increased tenfold since 
1986. And, as you know, this rapidly rising budget has done very little 
to stem the rapid rise in undocumented immigration.
    So I think we need to do more than simply throw more money at the 
problem. We need to abandon the same old, tired, narrow and failed 
policies of the past. And we need to think more comprehensively and 
more strategically about the issue--because building a giant fence or 
sending more unfunded mandates to our states will not solve this 
problem. And the hard reality is that these policies would only drive 
millions of undocumented workers further into our nation's shadows. And 
all the challenges that my colleagues talk about--from health care 
costs to other factors--will remain if we have millions of people 
operating in the shadows.
    I believe the solution lies in the fact that we must stop targeting 
Windex-wielding cleaning ladies and start focusing our limited 
resources on better targeting the real terrorists and criminals and 
smugglers who wish to do our nation harm.
    And I think that goal is achievable if we combine smart enforcement 
with a sensible and pragmatic path for new workers to come to this 
country--in a legal, safe and humane way--to fill shortfalls in our 
workforce.
    However, none of this will be successful unless we deal directly 
with the 8 to 11 million undocumented workers who are already here--
living and working and contributing to a better, more dynamic America.
    And let me be clear here: I believe that these people should be 
penalized. But the punishment should fit the crime. They should be 
fined and fingerprinted and thoroughly vetted. But they should not have 
their families destroyed for decades because they came here to support 
them. They should be allowed to be full and productive members of our 
society. So they can pay all their taxes and not have to rely on costly 
emergency medical care.
    But just attacking them will not solve the problem--we need real 
solutions.
    When I recently asked Federal Reserve Chairman Alan Greenspan about 
immigration, he stated:
    ``As I've said before, I'm always supportive of expanding our 
immigration policies. I think that immigration has been very important 
to the success of this country. And I fully support it.''
    And personally I think expanding our policies should be along the 
lines of President Reagan's views of immigrants to our country as 
people who ``posses a determination that with hard work and freedom, 
they would live a better life and their children even more so.''
    Or President Bush who stated: ``they're willing to walk across 
miles of desert to do work that some Americans won't do. And we've got 
to respect that, it seems like to me, and treat those people with 
respect.''
    So I think that it is important that we as a Congress and, in 
particular the work of this committee, focus on creating an immigration 
system that takes into account the important contributions immigration 
make--and will continue to make--if we encourage them to come out of 
the shadows.
    I know many blame immigrants for all of our nation's ills, but the 
statistics I see and the people I meet in Chicago and across the nation 
reflect an entirely different perspective. And it seems to me that 
these individuals who scapegoat our immigrant community ignore the very 
obvious, documented and specific benefits of immigration to the U.S. 
economy and society.
    In terms of health care, a recent Harvard/Columbia University study 
showed that health care expenditures are substantially lower for 
immigrants than for U.S.-born persons.
    Similar to how undocumented workers help sustain our Social 
Security System with a subsidy of as much as $7 billion a year, these 
individuals are also helping to subsidize our nation's health care 
system through the taxes they pay.
    Immigrants also pay billion of dollars a year in taxes. One study 
showed that the undocumented in New York pay more than one billion 
dollars a year in taxes. Whether that is sales tax, payroll tax, 
cigarette tax, they are making enormous contributions.
    And they are helping ensure the flow of the most important type of 
capital--human capital--back into our cities.
    According to Crain's Chicago Business, ``Immigrants are moving into 
and bringing new life to many blue-collar areas of Chicago that had 
previously been losing population. These new residents contributed to 
the city's net gain in population during the 1990s.''
    And I think that we, as a Congress, would be wise to take these 
factors into account.
    And that is why I believe it is so urgent for Congress to tackle 
the issue of comprehensive immigration reform. And why I think it is 
important to hard look at legislative proposals like Rep. Jackson Lee's 
and the one I introduced with Representatives Kolbe and Flake and 
Senators McCain and Kennedy.
    Because each day that goes by with silence and inaction means the 
potential for another dead body turning up in the desert, another child 
separated from her parent, another worker exploited and another dream 
denied.
    Thank you again, Chairman Hostettler and Ranking Member Jackson 
Lee, for giving me this great opportunity to be here today. I welcome 
any questions you and the other members may have.

    Mr. Hostettler. Without objection, the gentleman's 
editorials will be--the material will be entered into the 
record.
    Mr. Gutierrez. Thank you very much, Mr. Hostettler.
    [The information referred to is available in the Appendix.]
    Mr. Hostettler. At this time, I'd like to turn to the 
gentlelady from California for purposes of an opening 
statement.
    Ms. Sanchez. Thank you, Chairman Hostettler and Ranking 
Member Jackson Lee for conducting this oversight hearing.
    Throughout American history, immigrants have helped build 
America's cities, towns, farms, businesses, economies, and 
civic and cultural institutions.
    Now, I don't know about where everybody else lives, but I 
know first hand the benefits that immigrants contribute to my 
local community in the 39th Congressional District.
    Immigrants are a vital part of my community, and by 
immigrants, I mean immigrants of every ethnic makeup. They are 
the very same people who take care of our children and the 
elderly, educate our youth, clean our hotel rooms, pick and 
cook the food that we eat. They revitalize blighted areas and 
are successful entrepreneurs who pay taxes.
    If we deported every single immigrant in the country, I am 
told it would mean removing 12 to 15 million individuals. This 
is approximately the same as removing everybody from the States 
of Alaska, Delaware, Hawaii, Idaho, Maine, Montana, Nebraska, 
New Mexico, North Dakota, South Dakota, Wyoming, and give or 
take all of Kentucky.
    What do you suppose the economic and social implications 
would be of removing this many people? I frankly find the 
debate very disingenuous; that the very same people who oppose 
any realistic solution to the immigration problem are the same 
people who are enjoying the benefits of immigrants and 
immigrant labor in this country.
    People need to wake up, and people need to get real and 
drop the rhetoric.
    This weekend, for example, I was walking around the Capitol 
grounds, and I saw immigrants washing the windows of a certain 
political party's office building. This is the same theme that 
I see every day in my district and all around Washington, D.C. 
repeated over and over and over again.
    Now, just for the record, I want to get one thing straight 
here: I don't disagree with some of my colleagues who testified 
that our immigration system is broken and that we need to get a 
better grip on our borders. But while enhanced enforcement is 
an integral part of improving our nation's security, 
enforcement alone, without other reforms, simply will not 
achieve the control that the American people want and quite 
frankly deserve.
    The past decade has taught us a hard lesson. The border 
build up doesn't stop the flow. It merely shifts it to more 
dangerous areas, where apprehensions are more difficult, and 
death is more likely.
    So it's my hope that any immigration reform proposal that 
this Committee reviews is a comprehensive solution that doesn't 
just focus on trying to enforce our broken system.
    And I might remind my colleague that in the Book of 
Matthew, Jesus tells us for whatsoever you do to the least of 
my brethren, you do unto me. And I would yield back.
    Mr. Hostettler. I thank the gentlelady. The Chair now 
recognizes the gentleman from Texas, Mr. Smith, for the 
purposes of an opening statement.
    Mr. Smith. Thank you, Mr. Chairman.
    What I'd like to do is use my time to comment on some of 
the things that Congressman Gutierrez has just mentioned 
because I do think he, in his opening statement, touched a 
number of issues that do need to be addressed.
    First of all, I'd like to thank him for quoting from the 
1864 Republican Platform. That was when President Lincoln was 
renominated, and the quote, to mention it again, was, ``Foreign 
immigration, which, in the past, has added so much to the 
wealth, development of resources, and increase of power to the 
Nation'' and so forth.
    And I just want to say I don't know that there's anyone who 
would disagree with that statement or with that platform today. 
And, in fact, as long as I've been in Congress, the Republican 
National Platform has included words that are very similar to 
that.
    But, of course, we make a distinction between legal 
immigration and illegal immigration. And we recognize that our 
country is great today because of the contributions of legal 
immigrants, who have been coming for generations. And we know 
that we would not have the inventions. We would not have the 
strong economy that we're enjoying today, and many of the other 
benefits that we taken for granted, were it not for generations 
of immigrants in the past.
    But there is a distinction between those who come to our 
country legally and play by the rules and come in the right way 
and individuals who cut to the front of the line, who disregard 
the rules and laws, and who come in the wrong way.
    And that is a distinction we ought not to forget. I want to 
mention that the we had a law that we passed overwhelmingly in 
Congress back in 1996 that included an entry-exit system, which 
I think is the key to any reasonable determination of who's in 
the country legally and illegally. And what this entry-exit 
system simply did was to say we're going to find out who's 
coming into the country, why they're coming into the country, 
how long they're going to stay if they're coming temporarily, 
and whether they leave the country or not.
    You simply have to know that if you're going to protect our 
homeland security.
    And unfortunately, a lot of people coming into the country 
illegally are coming in for the wrong reason, and one 
absolutely astounding figure that demonstrates that is the fact 
that now today over 20 percent of all Federal prisoners are 
illegal immigrants--over 20 percent of all Federal prisoners 
are illegal immigrants.
    Clearly, not everyone is coming into the country for the 
right reasons.
    Furthermore, I think most of us also know that at least 40 
percent of the millions who are in the country illegally 
actually came in on short-term tourist visas or business visas 
and overstayed those visas, and then simply failed to return 
home.
    So it wasn't a situation where individuals came into the 
country illegally. They came into the country and then 
overstayed their visas, which puts them in illegal status, and, 
of course, makes them violators of our immigration laws.
    But those are the individuals who, along with those who 
blatantly cross our borders illegally, we ought to be able to 
determine who they are and encourage them or help them return 
to their home countries if necessary.
    A couple of other issues that were mentioned, and I've 
heard it at least twice today, is that the only thing that 
those of us who believe in border security failure is the 
immediate deportation of 8 to 11 or more million illegal 
immigrants. I don't know of a single Member of Congress who 
today would deport the 10 or 20 million illegal immigrants who 
are in the country today en masse, which is the implication of 
what we've heard.
    What we do think ought to be done is to enforce our current 
immigration laws. If we were to do just that alone, there would 
be enough disincentive for people that come to the country 
illegally, and there would be enough incentive for those who 
are already here illegally to return home to dramatically 
reduce the number of illegal immigrants who are in the country.
    So the other thing is when it comes to jobs, again to make 
blanket statements that all of certain types of occupations are 
occupied by illegal immigrants is simply not accurate. Every 
occupation that we can think of has many times illegal, but 
most often legal immigrants who are working those jobs. And we 
ought to put American workers first. If we need, in my 
judgment, to increase the minimum wage, maybe we should do 
that. If we retrain American citizens and legal immigrants who 
are, in fact, here for the right reason and legally, we ought 
to do that.
    There are a lot of things that we can do to try to fill 
those jobs that are now being filled by illegal immigrants, 
including mechanizing the growing of crops, for example. But 
let's put Americans first when it comes to the scarce jobs that 
we have in America.
    Another subject that is often brought up is that the 
current system is not working. We're throwing a lot of money at 
the problem. Well, the reason the current system is not working 
is because we're not enforcing current laws. If we, for 
example, were to enforce laws that say you cannot hire someone 
who's in the country illegally, that would be the kind of 
disincentive that I was talking about a few minutes ago to even 
arrive in America at the beginning. But we are not enforcing 
current laws, and so we shouldn't be surprised that we're not 
having as much success as we should be having in reducing 
illegal immigration.
    Also today, the Social Security system was mentioned. Is 
there somehow illegal aliens paying into the Social Security 
system are going to save it or help it? At the wages that the 
typical illegal immigrant makes, the Social Security system is 
actually going to pay that individual $100,000 or more over 
their lifetimes than they ever put into the system.
    So for their participation in the Social Security system, 
the result is simply do you make the Social Security system 
bankrupt sooner. It's not going to help it or save it.
    Finally, and I see my time is up, Mr. Chairman, so I will 
stop. I would ask those who speak so eloquently in favor of 
various immigration reform programs, what specific border 
security measures they support, because that's really what we 
need to learn if we're going to try to help our immigration 
system and reduce the number of illegal immigrants in the 
country today.
    Now, Mr. Chairman, thank you for the time, and I'll yield 
back.
    Mr. Hostettler. I thank the gentleman from Texas.
    Mr. Gutierrez. Mr. Chairman, if I might inquire through the 
Chair, if there's not going to be any questions, then might I 
leave? I'll be happy to stay, but if there are not going to be 
any questions----
    Mr. Issa. There's only one more opening statement?
    Mr. Hostettler. Yes, one more opening statement. And we 
will have questions.
    Mr. Gutierrez. Oh, okay.
    Mr. Hostettler. And, of course, you'll be the target of 
those questions.
    Mr. Gutierrez. As I said again, I don't want to leave. You 
know I'll stay.
    Mr. Hostettler. We expect a Member or two to return. The 
Appropriations Committee is doing some work.
    Mr. Gutierrez. It's important.
    Mr. Hostettler. Thank you. Thank you. The Chair recognizes 
the gentleman from California for purposes of an opening 
statement.
    Mr. Issa. Thank you, Mr. Chairman.
    And perhaps I can move the process of opening a dialogue 
along.
    I have to tell you, I believe that much of what you said 
was absolutely right. I also believe that all of what Chairman 
Smith said was absolutely right.
    The challenge we have is in the Chairman's very question or 
very statement is what are we going to do about it. We do have 
a challenge and that is that, and I know that one of the 
representatives of Border Patrol is here. The border today, the 
border enforcement policy is like the French Maginot Line.
    Now, for those who didn't study the failure of the French 
to win a war--except perhaps the French Revolution--ever, I'll 
switch it to baseball.
    Imagine a baseball game in which the players, the 
outfielders, the short stop and each of the basemen must stand 
in one position and may not move. And if a ball happens to come 
to them, they can catch it. But they can't move. And they 
certainly cannot run over to another base to cover somebody.
    That's our present border situation.
    The Border Patrol--and I am within the Border Patrol 
envelope in my district, my entire district--what you discover 
is it's a silly game. It's a game of can you get over the 
border, and sure, you don't get over the border every time. But 
you don't have to. As Chairman Smith said, 40 percent of the 
people that are here illegally are overstays.
    More importantly, if you don't get caught the first time, 
or if you get caught the first time, there's no penalty. Do it 
again. Do it again. Do it again.
    In my district, we don't even have the ability to prosecute 
criminal alien coyotes, people who repeatedly bring over and 
sometimes lead to the death of people trying to come here 
illegally, albeit. But the people, the human traffickers that 
do it, aren't even being prosecuted.
    I've called for a zero tolerance on coyotes. It doesn't 
seem like a big request. Guess what? It's left unanswered by 
this Administration, by the Justice Department, by the U.S. 
Attorney.
    And repeatedly, we've had to call on county sheriffs to 
hold a repeat offender, a criminal alien who's come back yet 
again, because the Border Patrol is having to release them 
because the U.S. Attorney will not prosecute somebody who has 
committed crimes, been deported, and is back in the country.
    So do we have problems? Absolutely.
    But as Chairman Smith said, we must begin enforcing the 
border or all of us, including Chairman Smith, who do believe 
that a guest worker program similar to Bracero, some real guest 
worker, something where you're a guest, is not simply another 
name for permanent immigration is in order.
    But the only way we're going to get it is if we have the 
cooperation of this Administration, if we have enforcement of 
laws.
    That's a problem on both sides.
    So for all of those who want to move the immigration issue 
along, absolutely we need to have a discussion on how we're 
going to deal with our need for labor and, Luis as you said, in 
all the sectors. It's not just about crops being picked in 
Imperial County or in San Diego County or in Riverside County, 
where I represent. It's about all these jobs.
    However, for all of us represented, and I represent an 
approaching half Hispanic District, we have to recognize that 
we are doing no favors for all of our citizens, all the people 
who vote for us, all the people who pay taxes, all the people 
who played by the rules to get here, if we do not protect them 
from simply having their job taken by the next person willing 
to work for less; and as you said, sometimes for minimum wage 
or less.
    So I hope that from these hearings will come a cooperation 
on a bipartisan basis. From these hearings, I hope that your 
bill, which is often known as the McCain bill or the Flake 
bill, my bill, other people's bills will be rolled together. 
But at the same time, on behalf of the American people, we all 
have to insist that there be prosecution of criminal aliens, 
rounding up of gangs terrorizing our cities, zero tolerance for 
people who return who've been previously deported, zero 
tolerance for coyotes.
    Only with that kind of enforcement are we going to get the 
kind of support by our constituents for a broad bipartisan 
overhaul of the system and some fairness, both for people who 
want to come here legally and work, and that's all they want to 
do, and for my constituents who are tired of the crime rates, 
tired of all of the negative sides that really do exist aligned 
with criminal alien and illegal aliens coming to this country.
    So hopefully, from this hearing and from your statement and 
the other Members', we can recognize every one of you was right 
substantially on what you were saying, but we have to quit 
talking past each other. We have to talk about agreeing to the 
common solutions that are allowing us to move the legislation 
along, but also, on behalf of the Border Patrol, which operates 
literally in my district, we have to make it very clear that 
they have to be unshackled and allowed to do their job. It is 
insane to have them standing at first base hoping the ball 
comes to them and being able to do nothing if it doesn't.
    Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    The Chair will now entertain questions from Members of the 
Subcommittee, and, Mr. Gutierrez, we appreciate your being 
here.
    Mr. Gutierrez. And staying.
    Mr. Hostettler. That's right.
    The subject of the meeting is the impact of illegal 
immigration on congressional districts, on our constituencies.
    Do you believe that illegal immigration has had a negative 
impact on America with regard to crime, and especially with 
regard to crime that is committed on immigrant populations, and 
especially illegal immigrant populations, as a result of the 
concentration of, in some cases, illegal immigrant populations 
and the fact that many of these illegal aliens do not wish to 
interact with law enforcement. And so, the minority of illegal 
aliens that come to do ill in America, not necessarily ill to 
American citizens, but do ill to immigrant populations that 
ultimately has a spillover effect, do you believe that illegal 
immigration has led to an increase in violent crime as a result 
of the explosion in illegal immigration?
    Mr. Gutierrez. I bet that you and I, Mr. Hostettler, can 
find statistics and actual reality of illegal immigrants being 
part of crime in our neighborhoods, as we can find that among 
any other sector of our population in the human race 
unfortunately.
    What I have called for, Mr. Chairman, is to fingerprint, to 
bring those out of the darkness and out of the shadows and say 
we want your fingerprints. You're going to pay to have your 
fingerprints. And if you've violated any law, we want an 
expedited, immediate removal from the United States of America 
of those elements.
    So in that sense, it would make the broader community. But 
what we have, Mr. Hostettler, is no system in place for, as Mr. 
Chertoff said, it would cost billions upon billions, upon 
billions of dollars to deport them all, and it would be an 
unfeasible thing to do. So if that's true, where is the 
political will, and where are the requisite resources to deport 
them all so that we can challenge those criminal elements 
within our community that live among the millions and millions 
of hard-working undocumented workers in our country, because I 
think we could both agree that, as we go to the vineyards of 
California or the apple orchards of Washington State, or the 
orange growers in Florida, what we find is hard-working 
immigrants, many of whom, hundreds of thousands of whom in the 
agricultural industry, a million of whom work really hard in 
pesticide-ridden, with no bathrooms, no educational system, 
very poor housing, doing work that I don't know I could find 
anyone in my district would challenge me and say, Congressman, 
how could you let those people do that work? Yet, we eat their 
apples. Eat their oranges. Eat their grapes. Drink the wine 
that's derived from them. And we benefit from their work.
    So I want to see us clean up our security system--the 
criminal element, the terrorist element.
    And I think the best way we could do that--one of the ways, 
not the best way--one of the ways we could do that is by 
offering them an opportunity.
    And I'll end with this. You know President Reagan, in 1984, 
I've talked about Abraham Lincoln, in 1864, but in 1984, 
President Reagan, when running for reelection, debated the 
Democratic nominee, Mondale, and he was for immigration reform 
and for having a new system of legalization.
    Indeed, they did that in 1986, the Immigration Reform and 
Control Act. And my point is if you look at the 3 million 
people that took advantage of that legalization program in 
1986, they're better educated today. They have better salaries 
today. They're more productive today, and the vast majority of 
them speak English, and have sworn to the Constitution of the 
United States of America by becoming citizens of this country. 
So it worked.
    Let's see if we can't revisit that future immigrants to the 
United States of America that want to come here to work, I 
would say they would come here to work. Their visa has expired. 
They would go back to their country.
    We have to figure out a way--what we do with the 10 to 12 
million that are already here.
    Mr. Hostettler. You bring up an excellent point about visas 
that expire.
    I believe three of the 19 9/11 hijackers had visas that 
expired, and, according to the 9/11 Commission, two of those 
individuals, Mr. Alghamdi and Mr. Almihdhar, would have--the 
very--I think the 9/11 Commission said they could have been 
picked up on immigration violations.
    But just as today, back then we did not enforce the 
immigration laws, so we didn't pick them up. And the 9/11 
Commission said as a result of their detention, the 9/11 plan 
could have been derailed. Those are the 9/11 Commission's 
conclusions.
    Without objection, I will allow myself an additional minute 
for an additional question.
    And so what I guess what I'm hearing you say is--and this 
will only require a yes or no--there's no contribution of 
violent crime disproportionate to the numbers of illegal aliens 
to the demographic addition to the country? You do not believe 
so?
    Mr. Gutierrez. I don't believe so. I believe that there is 
a criminal element, as there are in all sectors of our society, 
Mr. Chairman.
    Mr. Hostettler. Second--my other question for the minute 
would be, earlier this year we held a hearing where 
representatives from the Center for Labor Market Studies of 
Northeastern University testified before this Subcommittee that 
between 2000 and 2004, there was a loss of jobs held by native-
born American citizens of over 500,000, meaning that in 2004, 
there were 500,000, over 500,000, fewer jobs held by native-
born Americans than there were in 2000.
    However, they went on to testify that there were actually 
2.3 million foreign-born workers, more foreign-born workers, 
employed than there were in 2000, for a net increase of about 
$1.7 million to $1.8 million (sic).
    They went on to conclude that there is little empirical 
evidence to substantiate the notion, and I'm paraphrasing what 
they said, there is little empirical evidence to substantiate 
the notion that immigrants are doing large numbers of jobs that 
Americans will not do.
    Do you believe that--do you believe that--and they went on 
to say something I'll ask you a question regarding their 
conclusion--do you believe that large numbers of native-born 
American citizens are being displaced by foreign-born workers, 
at least half of which we know are here illegally?
    Mr. Gutierrez. I guess you and I would have to have a 
conversation about if we're talking about legal immigrants to 
the United States displacing American-born citizens or 
undocumented workers displacing American citizens.
    I do know that as you--foreign-born American citizens----
    Mr. Hostettler. No. No. No.
    And that's--they were actually immigrants, foreign-born----
    Mr. Gutierrez. Americans. Yeah, but foreign-born legal 
permanent residents and citizens----
    Mr. Hostettler. Well, not citizens--they weren't citizens.
    Mr. Gutierrez. Well, they could be either--well, foreign--
--
    Mr. Hostettler. According to these statistics, they 
weren't.
    Mr. Gutierrez. Legally in the United States?
    Mr. Hostettler. Yes.
    Mr. Gutierrez. Legally in the United States. Here's what I 
do know about----
    Mr. Hostettler. No. No. No. Let me just say there were 
1.7--the net that--one hundred percent of the net increase in 
jobs between 2000 and 2004 was contributed by foreign-born 
workers--immigrants----
    Mr. Gutierrez. Legally in the United States?
    Mr. Hostettler. Immigrants, illegal aliens--the folks don't 
say on here illegally when they do the census necessarily.
    But they're not born in America.
    Mr. Gutierrez. Okay.
    Mr. Hostettler. So there are 500,000 fewer Americans, and, 
for example, between that 2000-2004, there are more--millions 
more of foreign-born workers, not all of them--most of them 
aren't citizens. Some of them are legal immigrants, but over 
half of them, according to the testimony, were here illegally.
    Mr. Gutierrez. Let me try, Mr. Chairman. And I'd love to 
have a conversation, a broader conversation.
    If they didn't define who they were, here's how I can 
answer the question truthfully.
    I do know that those that are here legally tend to have a 
higher education, get paid more, go to school, participate in 
our electoral system; that is, Americans--those of us that are 
here, not born in the United States, foreign-born, and----
    Mr. Hostettler. I guess my question, Mr. Gutierrez, is----
    Mr. Gutierrez. --I understand the immigration, but it is--
--
    Mr. Hostettler. --I have--well, let me ask you a question.
    Mr. Gutierrez. Okay.
    Mr. Hostettler. I probably need to make this very clear.
    Mr. Gutierrez. Okay.
    Mr. Hostettler. I have constituents that come up to me in 
Southwestern Indiana, and they say, Congressman, I can take you 
to a job site today, where there are illegal aliens working for 
my boss's competitor, and they are being paid wages lower than 
I am being paid. My boss's company cannot compete; therefore, 
my job is in peril. That's what they say.
    Mr. Gutierrez. Right.
    Mr. Hostettler. And indeed--and so my question is, do you 
think that those people are----
    Mr. Gutierrez. And, again, I--then I'll try to answer your 
question in 15 seconds. Americans said that about the Irish as 
they were arriving, about Italians as they were arriving, about 
the Polish as they were arriving, about every immigrant group 
as they were arriving if you were here ahead of them, number 
one.
    But number two, if they're here illegally, if they're here 
undocumented, then let's figure out a way that we define what 
jobs they can be in so that they do not compete in a market 
with Americans. I will be the first to join you in putting 
American citizens and those that are legally here and born in 
this country ahead of any foreigner coming here.
    I believe that foreigners coming here should fill the jobs 
that no one else wants, and should work their way up the system 
as past immigrants have done in this nation.
    And I will join you in making sure that those abuses are 
ended.
    Let's figure out a way to get that done.
    Mr. Hostettler. Thank you. The Chair recognizes the 
gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I'm 
sorry that our colleague, Mr. Issa, had to step out for a 
moment, but I do want to associate myself with his call.
    Mr. Pearce, you were not here when he said that we needed 
to combine all of the issues dealing with immigration and 
really sit down breaching the partisanship and do it in a 
bipartisan manner.
    Might I just simply say to my Chairman, we have talked on 
many occasions, but frankly the agenda of this Congress is set 
by your leadership, and we will not get to where you would like 
to go. As you well know, I joined you in your State, with your 
constituents, and saw the--visually, the realism and the 
descriptions of what you have just said here today, and 
associated myself not only with you during that time, but also 
with your constituents.
    Frankly, I believe that Mr. Issa has an idea that many of 
us have already spoken to, and that is a working session that 
looks to the Secure America legislation, and might I say I have 
the Save America Comprehensive Immigration Reform bill that 
specifically speaks to the issue of ensuring that employers 
make a substantial effort to hire American workers before 
turning to foreign workers.
    And then, at the same time, in being moved by the visit to 
the border in your region have authored the Rapid Response 
Border Protection Act, which I think must go hand in hand. It 
deals with not ignoring the Border Patrol agents and agency, 
but it deals with giving them every single skill and equipment 
piece that they need, from night goggles to computers, to 
helicopters, to speed boats, to training, to scholarships, to 
improving their health benefits, and improving their personnel 
status among others. And it responds to the issue of detention 
beds.
    I only say this to follow up with both you and Mr. 
Gutierrez on the question that the Chairman has asked. And I'm 
going to go back to this citation dealing with the 500,000 jobs 
and 2.3 million and look at it in a different perspective.
    He is saying all foreign workers. So first of all, let us 
look to how many of those are in corporate entities, how many 
fall under the H-1B, where the numbers are going up and up and 
up, which results in some of the overstays. And these are 
people who are educated and primarily they are overstays or 
they are undocumented because and the H-1Bs, of course, require 
you to be employed, and they don't want to leave.
    So you have this gap of educated individuals who fall into 
this sort of, if you will, ever ending hole. And they fall into 
the lack of a comprehensive reform, because there's no place to 
put those individuals as well.
    So we talk about the numbers. Let us make sure that we look 
at--that these are foreign workers and the last time I heard 
Governor Schwarzenegger was a foreign worker. I assume that he 
is documented as the Governor of the State of California.
    But that is all of the individuals who may be foreign 
workers fall under this particular category.
    Mr. Gutierrez, we come at it from a different perspective, 
but let me ask you this: Is there value to the idea of allowing 
people to earn access to legalization, whether they do it, as I 
have offered--a 5-year period, community service vetting, or to 
guest work and then transition. Doesn't that go to the question 
of the Chairman's that when you have people documented--and 
documented individuals can be hired and fired; that it means 
they won't be deported out of the country. Documented 
individuals can be paid the wages of the private company that 
decides to pay them that. To add to the solution, I would also 
suggest that we all support prevailing wages, so no one will 
under compete in American companies.
    But do you see the value in that some vehicle called earned 
access to legalization as opposed to what you have just 
indicated to us would be a long journey of deportation? And 
when you answer that question, would you provide that number 
for me again. You cited two--the billions and billions, but you 
also cited another number of how costly it would be for 
deportation.
    Might I ask, Mr. Pearce, as well to answer the question, 
could you look comprehensively at immigration reform that would 
include, since you have so eloquently noted that your 
constituency is diverse, that would include strong border 
enforcement and resources that would empower our Border Patrol 
agents, because, as we stood at that border line, we heard the 
tale of woe--if I could only have resources; if I could only 
have 25,000 more Border Patrol agents. I happen to--and we may 
agree and disagree--two panelists may agree and disagree on 
that--but I believe that training professionals versus 
volunteers or Minutemen--and that's a conversation that I'm not 
really asking you to pursue as much as I am talking about the 
importance of reinforcing our resources at the border that 
helps to stem the tide somewhat of illegal immigration, 
because, as you well know, people fighting for economic 
survival sometimes are much more mightier than we might be.
    But, Mr. Gutierrez, can you speak to the issue of the value 
of earned access to legalization and the whole concept of 
working on a comprehensive reform package?
    Mr. Gutierrez. Sure.
    Mr. Hostettler. And without objection, the gentleman will 
have a minute to answer the question.
    The subject of the hearing is not about a guest worker 
program, earned access, so the Chair will show great latitude 
in allowing the answers to questions that have no basis in the 
meeting for the hearing.
    Ms. Jackson Lee. But if the Chairman would yield, I would 
suggest that in the question of impact, we might be weaving 
into a cure.
    Mr. Hostettler. The law is the law. Reclaiming my time. The 
law is the law today with regard to illegal aliens and their 
presence in the United States. It is the law today. That is the 
subject of this hearing. We will have hearings on changing the 
law, to repealing the law or whatever in the future, but really 
the subject of the hearing today is the impact of illegal 
immigration as the law today defines illegal immigration on 
particular districts. And so but, given that, still, without 
objection, you can answer the question.
    Ms. Jackson Lee. We thank you for your latitude and the 
ability of the witnesses to answer.
    Mr. Hostettler. Sure. Thank you.
    Mr. Gutierrez. It has worked. In 1986, a Republican 
President, Ronald Reagan, signed the last legalization, earned 
legalization bill, the 1986 Immigration Reform Control Act.
    It was a bipartisan bill. There was a majority of 
Republicans in the Senate; a majority of Democrats in the House 
of Representatives.
    Today, there are 3 million people who successfully went 
through that process. They're better educated. They're more 
productive. The vast majority of them are American citizens, 
and, as we see, they have a higher participation rate in our 
electoral system than those of us who were born in the United 
States. They strengthen our nation. So it has worked.
    I think bringing people out of the shadows and the darkness 
today is the only way. Mr. Chertoff said it would cost billions 
and billions and billions of dollars, and an estimate by a 
study made by a private think tank said it would cost $42 
billion a year for 5 years to attempt to deport the $10 to $12 
billion. So it's unfeasible. So you need to incentivize them to 
come out of the darkness, as we did in 1986, and make people 
Americans, permanent residents of the United States and give 
them the ability to do that; and I think, Madam Jackson Lee, 
Congresswoman, I think the way we do it is we penalize them. 
Let's fine them a thousand five hundred bucks. Let's figure out 
what the fine is. Let's talk about their contributions to 
Social Security, and whether they're entitled to them, because 
they were here undocumented while they were working. We can 
figure it out. Let's put them into a program for 7 years and 
say, well, you don't get anything for 7 years unless you work, 
you pay taxes, you follow all the laws. Let's put them into 
indentured servitude programs, but let's give them hope at the 
end of the day that after they've proven to us, they already 
are hard-working, committed people to America, that we say at 
the end of the day, okay, you've earned it. You get to join the 
rest of us, as our history has always allowed us to do in our 
immigration policy.
    So I join the Congresswoman in seeking that earned 
legalization.
    Ms. Jackson Lee. Mr. Pearce?
    Mr. Pearce. Yes. Mr. Chair and Madam Jackson Lee, your 
question is right on point.
    We have a very diverse population. We're a majority 
minority State, and I will tell you that at our 18 town hall 
meetings, there was unanimous consent that we should enforce 
the border strictly. It should be done fairly. It should not be 
done heavily handed against those people who've come illegally, 
but it should be strict.
    There is also consensus that it should be done by the 
trained professionals. I think you're exactly right on that.
    But two comments really stood out in the comments by the 
Hispanic community and many of the illegals come through our 
district. One was a young Hispanic gentleman in Dona Ana 
County, the southernmost county up against the border, saying 
that we should not go at this piecemeal like we've done it 
before; that we need this time to fix all the parameters in one 
fashion. That's the comprehensive bill.
    The other one, her, she lived up in the northern part of 
the district, in fact, in the southern part of Heather Wilson's 
district, and she, her father had come over as an illegal, had 
become legalized. But he had been here less than 20 years, and 
he was beginning to say we must stop the flow of illegals into 
this country, and he's in a predominantly Latino area in 
Southern Albuquerque, and she was coming up saying please we 
must begin to address this question of illegal immigration.
    I think that in the end, the consensus also was deeply 
among Hispanics, African Americans, Anglos, whoever, the 
consensus was do not give these illegals, even if you let them 
work, don't give them amnesty. Don't let them become citizens, 
because most of them have friends and family on the other side 
of the border who are trying to come here legally, and we've 
had testimony that it has taken up to 20 years to get the right 
to come here and get a green card, permanent status, then 
citizenship. And they're saying you should have a different 
pipeline for guest workers; that they should not get de facto 
citizenship, should not get ahead of those people who have been 
willing to wait and follow the law.
    And that was a very strong stand on the part of the 
Hispanics: please don't compromise our standards. Let those 
people chose to go back and get in line if they want to come 
here and become citizens or let them chose to stay here and be 
guest workers, but don't give them citizenship ahead of those 
people who have been willing to stand in their country's in 
line and do it legally.
    Mr. Gutierrez. If I could just quickly. Our proposal says 
they have to go to the end of the line. We don't put anybody in 
the middle of the line, and, true, in the 1986 Immigration 
Reform and Control bill, they did move to the head of the line. 
We do not propose that.
    We simply propose that they get in line, but while they're 
in line, they continue to work. They continue to raise their 
families. They continue to contribute, and maybe they don't 
move to citizenship; maybe they don't move to bring their 
relatives to this country ahead of the others that are already 
in line from all different countries of the world until that 
other line that exists is already exhausted.
    So we'll put them at the end of the line. I agree with you.
    Mr. Hostettler. Thank you. The Chair recognizes the 
gentlelady from California for 5 minutes.
    Ms. Waters. Well, thank you very much, Mr. Chairman and 
Ranking Member Congresswoman Jackson Lee.
    We had some discussions just yesterday, where I said to 
Congresswoman Jackson that I think the Members of Congress 
either we were talking in the Black Caucus, and I think all of 
the Members of Congress really need what she refers to as a 
tutorial. You know people are all over the place, and they 
understand this issue differently.
    I think that there are real concerns about people who work 
for lesser wages and the question really becomes whether or not 
they're undermining other people's ability to work or whether 
they are doing jobs that others don't want to do.
    And I think these issues are not understood, because I 
don't think the proper study has gone into these issues, and I 
know this. I mean people are coming to this country and looking 
for opportunity, looking for a chance to have a decent quality 
of life. I support having close--I mean having strong border 
controls, and I don't support people coming across the border, 
illegal immigration. I don't support any of that.
    But I do support some kind of effort to provide for people 
the opportunity to have citizenship, particularly people who 
have been in this country for long periods of time. I've got 
people in my district who have been there for 30 and 40 and 50 
years. They don't have anyplace to go back to. This is their 
country.
    And I think that that has to be recognized. There are some 
people that I would like to see deported. I'd like to see them 
deported whether they're Latino, Black, or anything else. 
They're wreaking havoc, and the gangs and that kind of thing, 
and I've said this once, and I'll say it again: The gang 
members really bother me. I'm very upset about all gang 
members--Black, Latino, what have you. But I'm concerned that 
there are gang members who come across the border, and they 
commit crimes or get involved with some of this violence, and 
then they slip back. And I understand that there are some that 
are coming back and forth.
    And I think, you know, I can be very, very comfortable with 
dealing with that as an issue that, you know, I understand very 
well.
    The issues that I don't understand very well are these: I 
hear some of our more conservative Members talking about this 
problem and talking about, you know, deportation, but what I 
don't really hear is an honest discussion about the division 
among the conservatives in this Congress, where I think the 
Chamber of Commerce and those who are very much interested in 
labor are willing to take some very, very big steps in order to 
maintain this workforce.
    As a matter of fact, the last time I was in Palm Springs, 
California, it was very clear to me. If you deport folks in 
Palm Springs, that closes the city down. I mean it would just 
close down. All of the work is being done by a combination of 
legal and illegal immigrants in Palm Springs, and I have to 
tell you the hotels and the chambers of commerce, et cetera, 
are not willing to give that up. And they're not going to give 
it up. I mean we could fight all day and talk all day about 
deportation and whether or not, you know, we're going to have a 
guest worker program or whether we're going to have some kind 
of earned legalization, what you have. But I am convinced--and 
I feel pretty comfortable that the moneyed interests of 
America, the real capitalists, the major corporations of 
America will see to it that there will be no massive 
deportation of the people who are making them rich. I'm 
convinced of that.
    I mean I--we can just sit back, and we can watch it happen, 
because that is the truth of the matter.
    So having said all of that, I do there's room for the 
tutorials or the education, the information sharing, the real 
facts about all of this that we need to have in this Congress, 
and not just in the caucuses where we're talking about them.
    I think that the--I would really like to see my friends on 
the opposite side of the aisle and the more conservative voices 
have a real discussion among themselves about this issue, 
because, for the most part, the--well, there are those who are 
really, really, really supporting border patrols and talking 
about deportation, et cetera, et cetera, but in that same 
caucus, we have the voices that are emerging in a very strong 
way about preserving the workforce, because it's--if the 
workforce is not preserved, then the country won't be able to 
operate. It just won't be able to carry out many of the 
services that are being provided, and that discussion has not 
really taken place yet.
    So I am looking forward to that.
    Having said all of that, I'm interested in Sheila Jackson 
Lee's earned program--what do you call it?
    Ms. Jackson Lee. Earned Access to Legalization.
    Ms. Waters. Yeah. Earned Access to Legalization program. 
I'm interested in how we can honor some of the people who have 
been here for many, many years, and deportation is not 
realistic, and it's not going to happen, and again the only 
people I'm interested in deporting are the gang members who 
cause me problems in my district.
    Mr. Hostettler. I thank the gentlelady. We're going to go 
to a second round of questions, and I want to ask--and I want 
to assure the gentlelady from California that I can speak from 
fairly good experience that conservatives are talking about 
this, and it is an interesting dialogue, an interesting 
discussion.
    Mr. Gutierrez. Mr. Chairman? I need to--I'd like to be 
excused.
    Mr. Hostettler. Yes.
    Mr. Gutierrez. Thank you. I hope you have a good day.
    Mr. Hostettler. Thank you, Mr. Gutierrez.
    Mr. Gutierrez. Thank you, Mr. Chairman. Thank you, Mr. 
Pearce. Thank you, Members of----
    Mr. Hostettler. I will--I had a question, but I would just 
make a statement. A lot of discussion is being had today about 
this idea of mass deportation, like that's necessary if we're 
going to enforce the immigration laws.
    In 1986, workforce enforcement became the law. That's the 
law of the land. It is illegal in the United States of America 
to hire and employ an illegal alien. That is the law, just as 
it is the law in the United States of America to pay Federal 
income tax.
    Now, my question would be, Mr. Gutierrez, and it might be 
for Mr. Pearce, that if we had the IRS in place, and there was 
no possibility--the purpose for the Internal Revenue Code is to 
acquire revenues for the operation of the Federal Government.
    If the IRS was in place, and everyone that made out a 1040 
form that supposedly paid taxes realized there was never ever 
any possibility of being audited at all, my question is, what 
would happen to revenue levels?
    I would say they would probably drop off. And, therefore, 
the law would be moot. The law would not be enforced.
    Likewise, if there's not ever a chance of enforcing the 
immigration law with regard to worksite compliance, then you're 
going to have the law flouted, and you're going to have illegal 
aliens flood across the border and be employed in America.
    But going back to the IRS, the knowledge that there is 
going to be an audit causes most of us to be pretty honest. I'm 
a 100 percent honest with our taxes.
    Likewise, the knowledge that you are going to be 
investigated with regard to violating Federal law and Federal 
immigration law, will cause a lot of people to aggressively 
adhere to the law. That would potentially remove what Barbara 
Jordan referred to in her commission as the jobs magnet. If you 
eliminate the jobs magnet, and there are no jobs, theoretically 
at an extreme for illegal aliens in America, the question 
hypothetically, rhetorically, how many, then, do you have to 
deport?
    And so that is the question.
    And the question that I have--and so, the discussion of 
deportation is really a red herring. If the worksite 
enforcement laws are enforced by the Administration, as article 
II of the Constitution requires them to do, then we have the 
same situation with the adherence to the immigration law that 
we do with the Internal Revenue Code.
    Now, a lot of discussion, Mr. Pearce, has been had on this 
idea of earned access, and I'll couch it in these terms: First 
of all, the people violate the law by their presence, their 
coming into the country. When they step across that border, for 
better or for worse, a Democratically-controlled Congress in 
1986 said that if they are also hired, they're violating 
Federal law, as well, not only their presence here, but if 
they're violating the Federal law.
    The discussion was had that we will fine them. We will send 
them back to the back of the line. We will do this to them. We 
will do all these things to them. That's going to require oddly 
enough, enforcement of an immigration law, and not only that 
but the Border Patrol is going to allow these people to come 
through because they're coming through legally to work in our 
districts and work on border districts. But if the past 
experience informs of us anything, they're going to come to 
Southwestern Indiana, among other places, and they're going to 
come and acquire work and do other things not necessarily as 
virtuous as work, and impact our communities.
    And so my question, Mr. Pearce, is this: Why should our 
constituents believe you or me when we say if you give us a 
guest worker program, we're going to enforce the law, when, in 
fact, history indicates that we have the tools today; for 
example, for worksite enforcement, for a lot of the expedited 
removal to fill in the blank. All these tools are--and the 
Department of Homeland Security has decided recently to 
actually to begin to enforce these laws that are already in 
place.
    Why should they trust us this second time to say this time 
we're going to actually enforce the immigration law?
    Mr. Pearce. Sure. It's a great question, Mr. Chairman, and 
there are two elements to an answer that need to be discussed 
in my opinion. The first is as process I don't think that when 
we set up the original law, that there was a very good process 
to distinguish between who had a legitimate presence here as a 
legal alien and who didn't.
    So I've got employers in my district telling me in my 
hometown that they're going to shut down their second business. 
They've got--this Hispanic lady has two restaurants. She can 
oversee one personally, and has to hire a manager. She said, I 
can't tell by myself which green cards are green enough, and 
which are not green enough.
    So there's that process of enforcement that never was set 
up. And it puts people in an extremely awkward position trying 
to find the work.
    But the second, more compelling answer I think that applies 
exactly to what you're talking about is the imbalance between 
needed workers and available workers.
    I will tell you everywhere I go in the country, I'm always 
talking to employers because I myself had to go out and find 
employees, and we had to find qualified employees. We generally 
pad in the $30,000 to $80,000 range, so it wasn't like we're 
feeding off of people here with no skills.
    And I will tell you that always the answer among 
employers--and it's what I found to be true: that we just need 
two things in employees. We need employees that can pass a drug 
screen and that will show up for work tomorrow. If they don't 
know English, we'll teach it to them.
    Right now, you have a tremendous imbalance without 
available workers, and that imbalance is going to accelerate in 
the next years. If we have a guest worker program--and the 
imbalance is going to accelerate, because 40 million Baby 
Boomers are reaching retirement age, so the pressure is even 
going to be greater.
    Now, what I would tell anyone who's asking why should we 
believe you is that that imbalance is going to be cured. It's 
either going to be cured legally or illegally.
    And in partial answer to Maxine's question that is it 
exploitation. These are not exploitation wages. I will tell you 
over the weekend that one dairyman has put in $250,000 of 
houses because the law says if you bring them here to work as 
immigrants, you got to provide housing and utilities. So 
$250,000 to where he can bring people in. It says he also has 
to pay at least a wage above minimum wage of $7.78 or he can't 
bring them here. He's paying over $10, plus $10 for the housing 
and utilities. So he's now at twenty something dollars.
    That's in the dairy industry. The imbalance is so great 
that people will either come here illegally or legally because 
they're going to get paid better than they can at home.
    Now, in the oil industry, which I made my living in, right 
now jobs as a driller--drilling rigs are kind of the basic of 
the oil industry--a driller is making over $100,000, with no 
high school education, no college education generally, and 
people are making--that are working on that crew anywhere from 
$40,000 to $60,000 annually.
    So these are not exploitation wages.
    It's that the labor supply is so short, and the employer so 
desperate that right now we don't have a way for these people 
to come into the country.
    I testified earlier that it's a 20-year wait sometimes to 
get here legally, so people are scooting away from the borders 
and coming through illegally to satisfy this need for employees 
that's going to be satisfied or we're going to send the jobs 
out to where they are. We're either going to bring workers in 
or send the jobs out.
    So if we have a guest worker program to where people come 
through--and I suggested on my tours, and everybody thought it 
was a good idea--all cultures thought it was a good idea, a 
biometric scan. You have a retina, fingerprint, and then your 
picture comes up. Your employer, the potential employer looks 
and says that's you. Here is your Social Security number, so 
they take out Social Security pay. You pay taxes.
    Those things would take that pressure off the illegal part 
and allow it to become legal, with that credit card looking--
just like our voting card here in Congress--that voting card 
giving you access to come into the country. You go to your job. 
If you don't report within 2 weeks that you're working, now you 
go into illegal status, and there's a far smaller pool.
    So we take the pressure off the border. Our agents, then, 
have more access and more resources to direct into those 
unmonitored uses of the border, because you take so much 
pressure off if you give legal status and legal entry to the 
people who are just coming here to make a better way for their 
family and in addition satisfying a great need for employees 
that we in the country have.
    Mr. Hostettler. Would your competitor hire a $100,000 a 
year legal driller if he knew that he could hire a $20,000 a 
year illegal driller, and he would never face any consequences, 
as is the case today.
    Mr. Pearce. I will tell you that you can't answer for every 
single person.
    I will tell you that there are people out there who will 
beat any system, but the dairyman that I talked to, a long-time 
acquaintance, go to Sunday school together, and he could be 
hiring illegals right now. I guarantee that the people are 
there and available. But he's trying to follow the law. He's 
trying to find--follow the letter of the law, so he's out 
$250,000 in order to go get these legal immigrants who are 
allowed to come in under the Agricultural Work Program. He can 
only hire them for 10 months, and so that is a piece that we 
should attend to.
    But I think his answer is that, no, he wouldn't hire that 
$4 an hour cash employee. If he would do that, he wouldn't have 
put in the $250,000 set up to put people into housing, which 
the law requires.
    I think that most businesses would jump at the chance to 
operate legally. There are some who would not frankly if we 
were to give legal recourse to the employers who will do things 
right, I will guarantee you, the market itself will begin to 
discriminate against those people who are law breakers and who 
would exploit.
    I just think most people just want to be out of the shadows 
operating correctly.
    Mr. Hostettler. The gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    As I listen to the discourse between you and the 
distinguished gentleman from New Mexico and I listen to my 
colleague, the distinguished gentlelady from California, 
mention I think a very now evident concept that were 
discussing, a tutorial, and the reason why I say that is 
because I think if we are realistic, we know that leadership is 
talking about potentially post the Christmas holiday for 
serious consideration some of these very important issues.
    I would be surprised if we were pre-holiday that this would 
occur, but surprises do happen.
    The reason why I say that, Steven, is because as I listen 
to you in New Mexico, what the Chairman is saying is that he 
will have a Midwesterner, if I might say the Rust Belt, look in 
great frustration and consternation about the job loss. You, on 
the other hand, can live with strong border security and the 
recognition that you have substantial industries, businesses 
that really would welcome that population.
    Now, let me wear another hat. I confront in urban 
population with African Americans, who will raise the question 
that even if we are discussing the issue of immigration, that 
they may be impacted negatively.
    What is the basis of that? Unemployment. Poverty. The lack 
of jobs. Our social societal ills that we have not responded 
to. Job creation.
    So I would say to my Chairman, he's discussing the issues 
that I would be discussing. He's discussing the lack of job 
opportunity, poverty, the lack of an economic engine, alongside 
of employer sanctions. The difficulty with employer sanction 
is, of course, we're talking about them now. They've been in 
place. But we have been--and I would admit I'm not the 
enforcer. I wasn't in Congress as these laws were started, but 
I can certainly look back and say, yep, they have not been 
enforced.
    So I think the challenge that we have is that we will not 
move past first base if we cannot convince the Chairman that 
the answer to his constituents' question may not be totally, if 
you will, infused, invested in the immigration issue. It may be 
partly so, but it may be a variety of economic issues. And 
maybe we can have a consensus around employer sanctions, but I 
don't think we can get away from the comprehensive immigration 
reform.
    With respect to the African American community, I think 
it's important for me to say to them, I support increasing the 
minimum wage, and this is I saying it, and those will join in 
increasing the minimum wage. I think that would impact the 
constituents of the Chairman in Indiana. I support the idea of 
prevailing wages. I support employer sanctions, and might I 
say, though this hearing does not relate to trade bills. I 
certainly oppose the lifting of American jobs and sending them 
elsewhere, which has been a decided--has a decided impact on 
our economy.
    I say this because Barbara Jordan was a predecessor--one of 
the predecessors of the office that I hold. Now deceased, I 
know that the climate was very different when she wrote this 
report. There were elements in it that we could agree with and 
some not. I think we failed in not pursuing at least the 
question of employer sanctions. But on the other hand, you'll 
speak to the Chamber of Commerce, and they will be--abhor 
employer sanctions because they will say to you what do you 
expect people to do.
    So my question to you is--it looks like I'm doing a 
tutorial or a philosophical dialogue or discourse, but my 
frustration is that if we--and these are good hearings, Mr. 
Chairman, by the way--but it does evidence the frustration that 
we have and probably the divide of ever coming to sit down and 
try to iron out what we need to do, supporting the Border 
Patrol on illegal immigration, if we keep that terminology in 
that they would help us on that, providing the workforce, but, 
yet, saying to the American worker--and, by the way, 
legislation that I have works to recruit American workers, 
protect American jobs, does outreach in minority communities, 
trains minorities who may not have jobs--but the point is what 
you've seen from your town hall meetings, can we get away with 
the horse being out of the barn, the chicken and egg concept? 
Are we not going to have to look at this comprehensively, 
because the Southern border States we can get together. We 
might even be able to get together, Dems and Republicans, 
because we're facing the same issue, short of my unique issue 
dealing with the African American population, which I think we 
need to address.
    But where are we going to get that consensus from our Rust 
Belt--I don't know if you would include the Western States--to 
be able to understand that we cannot go without doing anything. 
We cannot go with only dealing with border security, which I 
think we have some meeting of the minds. Mr. Pearce, would you?
    Mr. Pearce. Thank you, and I always appreciate the 
gentlelady's approach. It makes me realize that we are much 
closer to consensus in the Congress and in the country than 
what many of ourselves believe. As the Chairman mentioned, we 
have been having deep discussions on the conservative side 
talking about enforcement and the guest worker program, and I 
think that there is such significant movement among our 
conference and I suspect the same is true in the Democrats' 
side that the people are realizing we must do something.
    I think Americans across the country agree that it should 
not be the same sort of illegal act to come here and try to 
make a better way for your family. In other words, that should 
not be as illegal as importing drugs or humans--sex 
trafficking. The--back to your point about the problems in the 
African American country and----
    Ms. Jackson Lee. Community.
    Mr. Pearce. --communities in the large cities. It breaks my 
heart. We're about 5 percent unemployment, and I will tell you 
as an employer who has tried to hire people, at 5 percent, 
you're not getting people who will walk through the door that 
really have the skill sets to really work. And my wife and I 
committed early on that we're going to reach out into the 
community that does not get hired much, and we're going to work 
ourselves, and we're going to just solve one or two cases. With 
50 employees, you're not going to solve.
    We had one guy that was working for us when I had sold the 
company after coming here. He was forty-something years old. He 
was tattooed from head to toe, and on every part of himself. We 
hired him, and he was the first--it was the first full-time job 
he ever had.
    Now, he has stuck, but so many didn't. We hired one young 
man that was about 5 years younger than myself. I knew his 
family--well respected; had been in prison most of his life for 
doing drugs. We hired him. I got--I called to the penitentiary 
and said if you let him out, I'll hire him. We brought him in 
and said, we'll get you counseling, whatever we can do. It did 
not take in his case, and in many cases it did not take.
    We have arrived at such a point that many of the people who 
are not working today don't have the skill sets and the 
discipline, and that is up to us as a nation to solve that 
problem. My wife and I right now are--we have a small effort to 
try to provide mentors for people in the State, because if we 
don't catch this next population, this group of junior high and 
high school students that are just wondering if they can be a 
productive part of society, if we don't provide the help to 
bridge them back in and literally take that mantra that has 
grown offensive to some of not leaving any child behind, if we 
don't solve that, this country has such deep problems exactly 
from the part that you're talking about, we--I see almost 
unanimous consent that once we begin to solve in some way the 
availability of workers in a legal fashion, that sanctions to 
those people or those employers who will break the law and go 
out and hire people and keep them under the shadows, keep them 
off the tax rolls, and keep them away from the protection of 
the labor departments, those people need sanctions, and I would 
find unanimous consent among my Mexican constituents as saying 
yes, once we help them solve their problem, then there's no 
going back.
    Again, that would answer some of Chairman Hostettler's 
question--how should the American people believe us. And your 
points are very, very well made and, I just think that the 
future of our country is at stake, because the international 
competition now is such that when I grew up, it was those cheap 
Japanese imports that were threatening to take our jobs. I have 
been to China, and I will tell you they are not cheap 
imitations. These are great, great replacements, knock offs of 
the intellectual property that we worked here to create, and 
they steal. North Face jackets--$150 bucks in the stores here--
$13, and they're exact replicas, maybe even better. And when we 
allow our intellectual properties to be counterfeited and 
stolen like that, we're at the risk of losing our entire 
economic base.
    But India is providing really strong competition in the 
technology sectors. We must in this country be aware of the 
threats to our overall economy and the hope and opportunity for 
all of us.
    But I appreciate your reminder about those people who we'd 
have difficulty discussing this in that constituency, and I 
appreciate that.
    Mr. Hostettler. I thank the gentlelady.
    Ms. Jackson Lee. Mr. Chairman, would the gentlelady and the 
Chairman just indulge me for 1 minute. I know there's a second 
round to the gentlelady. I just wanted to thank Mr. Pearce for 
the charitable approach that he has taken with respect to the 
constituents in a State that has probably a very low African 
American population, and, therefore, some of the ills that face 
society are magnified.
    But I do want to just get for the record that when we talk 
about this problem, that's why the Chambers, the U.S. Chamber 
of Commerce should be engaged because they are very supportive, 
as the gentlelady has said, of this question of reform.
    She had mentioned that Palm Springs would close down, and 
I'm sure there's some diversity there, but included in my 
points, of course, were the future college graduates of 
historically Black colleges and other institutions--engineers 
who are unemployed, which I think tracks the Chairman's point 
of his constituency that may be an Anglo, may be a White 
population saying they don't have jobs, but we have populations 
trained that don't have jobs for us to realistically be able to 
answer the question of the impact of illicit immigration, but 
also the impact of it on certain segments. We need to deal with 
being able to say to these individuals you will have work, too, 
and tell them that the reform of the immigration system will 
enhance them getting work--we have to make it work--and at the 
same time be true to our words that they will have work, 
because I'm talking about college graduates and others who 
still suffer unemployment, and it happened to be in this 
instance African American, and though I don't step away from 
immigration reform, they complain, rightly so that they're 
without work.
    Mr. Pearce. The gentlelady is correct, and I will tell that 
rather than finding less competition of that sort, an amazing 
thing happened back before the dot com collapse and that is 
that we pretty well put fiber optics all the way across India. 
Now, India is the source of many of our very highest caliber 
scientists and mathematicians in this country. They are such a 
small percent of the U.S. population, but the Indians who have 
come here and lived as citizens are less than 1 percent of the 
population, yet they provide 10 percent of the graduates every 
year from the Ivy League schools.
    But now, then, with India being wired with fiber optics, 
those scientists and those great brains can stay at home and do 
the same thing over the Internet. I think that we have a 
challenge to come together as Democrats, Republicans, and 
Independents and look at the challenges that face us, to gird 
our loins and to fight the fight to preserve what we have in 
this nation. Any guest worker program I think should always 
recognize that Americans, if they will fill the jobs, should 
get the first job at it. And I think we're all seeing the same 
specter and the same thing that we should be afraid of, and the 
same really things that we should solve, and I appreciate the 
viewpoint.
    Mr. Hostettler. The gentlelady from California.
    Ms. Waters. Thank you very much.
    I'd like to ask a little bit more about the guest worker 
program that you described somewhat or alluded to where you 
have an identification card, and if you're working, you're 
gainfully employed, you may be in this country. How does it 
work? I mean are you here forever if you work forever? Do you 
get citizenship if you work for 10 years, 20 years? How does 
your idea of a guest worker program work?
    Mr. Pearce. The difficulty if we allow the guest worker to 
gain citizenship while they're here is that we don't take any 
of the pressure off the border, and you have to understand that 
the only--I think the only solution to our border problem is to 
take the pressure off of those untended portions. My district 
is 180 miles. And if you put enough pressure at the point of 
entry, they're simply going to scoot over. And we can build 
that fence that someone has suggested, but until we put an 
agent every mile along that fence, they're going to come 
through.
    So my impression of a guest worker program is that people 
really will have to determine if they want to come here for 
citizenship or if they're simply satisfied to come here as 
workers. And I will you that we had illegals show up at our 
town hall meetings saying, I don't ever want to be a citizen. I 
just want to come here and make enough so that I can go home 
and be self sufficient.
    And we have people who have lived here 40 years legally, 
working and saying, you ask them where they're from. I'm from 
Chihuahua. I'll go home when I retire.
    And so there is a mentality that says we love coming here. 
It's the same mentality that you and I have. I was----
    Ms. Waters. So the guest worker would be free to travel 
back and forth across the border?
    Mr. Pearce. Free travel back and forth--just access.
    And these same people said if you give us that access, 
we're probably not going to bring our families, because they 
want their kids to grow up in the same high school where they 
graduated, the same as I wanted my daughter to graduate where I 
did.
    The said if we leave our families, then we don't have so 
much pressure on the social systems. We'll go back and forth. 
That's pretty much how it used to work in the Bracero Program, 
and I have a lot of Hispanics who were here as Braceros and 
said, why did we stop that program? It seemed to work pretty 
well.
    And I think that it's up to all of us to determine what we 
want----
    Ms. Waters. So you're talking about the possibility of a 
guest worker program with strong employer enforcement?
    Mr. Pearce. Mm hmm.
    Ms. Waters. That would eliminate the possibility of 
employers having illegal immigrants without the documentation, 
without the paying into the system, all of that--that's what 
you are describing?
    Mr. Pearce. Absolutely. And, again, right now, we require 
enforcement by the employer. That one Hispanic lady says I got 
to shut down a restaurant, because I can't--the people I hire 
can't tell if those green cards are green enough. Those were 
her words.
    Ms. Waters. So you would couple this with strong 
enforcement on the border, and for those people who are in the 
system standing line in their correct places to apply for 
citizenship? That would be kind of your general program?
    Now, let me--I like the idea that you understand the need 
for education and training. And you talk about, you know, those 
individuals, be they Black or what have you, who are 
underemployed or don't have skill sets, et cetera, and this 
country appears to ignore that, while we are chasing people 
from other places to fill these jobs like the citizens of India 
who have become very popular in Silicon Valley and other places 
where they were providing the skill sets and like you said, 
because of fiber optics they are doing more and more because 
they can do those jobs from wherever they are.
    Now, wouldn't it be interesting if we could convince the 
Congress of the United States, Democrats and Republicans, to 
really invest in human potential, and invest in job training, 
invest in getting people trained for jobs that are otherwise 
going to India or other places? It costs money, and I've not 
seen a willingness on the other side of the aisle to do that. I 
can recall a job training program that I just had a good fight 
on the floor, and some years ago, following the problems of 
South Los Angeles and trying to encourage this Congress to do a 
job training program for what I called 17- to 30-year-olds with 
what I consider supports the training while they're in 
training, et cetera, et cetera, and you kind of mentioned 
people who are coming out of penal institutions and on and on 
and on.
    Well, I like your idea that we should be supportive of 
that. It costs money to do this. It costs money to train, but 
I'm prepared to do tax breaks and to give tax incentives to 
businesses that are willing to do some real training. I don't 
want the paper training. I don't want what happened with the 
Private Industry Councils and other kinds of so-called training 
programs. But I do want real training by industry, and I'm 
prepared to do--support tax incentives--all of that.
    But I guess the big question is, do you think that your 
side of the aisle would be prepared to couple kind of your idea 
with job training that costs money, because I tell you if you 
come up with something like that, and there may be a lot of 
people who would be willing to look closer at your guest worker 
program.
    Right now, I'm not there on the guest worker program, 
because I still think we'll get--and I could be dated on this--
but I still think of it as kind of exploitation. Let them come 
and work, but don't try to stay here. We want you--and I still 
think of it as cheap labor. I'm very impressed with your 
industry and the amount of money you pay, but that's not most 
of our undocumenteds. It's not most of those who come across 
the border seeking better opportunity. You know, I'm just a, if 
I may, I'm just outraged by what's happening in New Orleans and 
on the Gulf where major contractors are exploiting workers from 
Guatemala and places.
    There was one story that it has brought tears to my eyes 
where Guatemalans were sleeping on the ground. They had 
inadequate clothing. Not only were they employed to do some of 
the work that these big contractors who got no bid contracts to 
do this work, some of the exploited workers were thrown off the 
job and they didn't even pay them for what they worked for.
    So I mean it's great to hear about hundred dollar an hour 
jobs or whatever, but the fact of the matter is most are in 
low-wage jobs, the very low-wage jobs.
    However, having said all of that, if there was a real 
willingness to invest in job training so that we eliminate the 
argument about people who feel that the--the undocumenteds who 
are taking jobs and but people feel that they don't have the 
opportunity to get trained for jobs so they can get the skill 
sets. They'll never get the experience without the training or 
somebody taking a chance, as you described.
    If we could figure some of that out, and couple that with a 
guest worker program, I may--you know I may not only be 
supportive of some that, but would encourage some other people 
to be supportive of it.
    So what do you think about some real investment in human 
potential for job training and for people who have been kind of 
dropped off of America's agenda, some of them who dropped out 
of school that shouldn't have, but, you know, we could find 
their way back in with some support. What about supporting 
people while they're in job training. If you have to be in job 
training for 6 months, you got to eat. You got to have 
transportation. You've got to, you know, be able to stay there 
to be trained.
    What about that kind of support?
    Mr. Hostettler. At this point, job training is a 
fantastically stimulating issue. It just doesn't happen to be 
the prerogative of this Committee. And in the future, we will 
be taking up the issue of guest worker programs and earned 
access and every other discussion of allowing more people into 
the country to work from outside the country.
    Ms. Waters. Mr. Chairman.
    Mr. Hostettler. But at this point----
    Ms. Waters. Will the Chairman yield?
    Mr. Hostettler. I will yield.
    Ms. Waters. Mr. Chairman, I thought this was about the 
impact on our districts today.
    Mr. Hostettler. Of illegal aliens.
    Ms. Waters. Okay. Of undocumented.
    Mr. Hostettler. Are you going to be training illegal aliens 
in your job training bill?
    Ms. Waters. No. The question becomes, yes, we have 
undocumenteds in my district, many of whom are working in very 
low paying jobs, being exploited, and we have people, African 
Americans and others, in the same district who complain about 
the undocumenteds, but they wish to be able to have access to 
jobs, which would require job training.
    So I think it fits your subject matter.
    Mr. Hostettler. Yielding----
    Ms. Waters. Yes.
    Mr. Hostettler. --regaining my time.
    Ms. Waters. Sure.
    Mr. Hostettler. And so my question to the gentlelady is so 
it is your experience that illegal aliens are displacing 
significant numbers in the workforce of your constituents?
    Ms. Waters. No, that is not my experience.
    Mr. Hostettler. Reclaiming my time----
    Ms. Waters. My experience----
    Mr. Hostettler. Then who needs job retraining?
    Ms. Waters. I think that there is a need for job training 
if there were no illegals or undocumented----
    Mr. Hostettler. Okay. Very good. But that being the case, 
that isn't the subject of----
    Ms. Waters. And----
    Mr. Hostettler. --this hearing. In fact, we will now return 
to the subject of the hearing, which was the impact of illegal 
immigration.
    I appreciate the gentlelady's insight. We will be taking up 
a bill that does--I mean we will be taking up hearings that do 
discuss this issue, and in that context, but the gentlelady's 
statement is that illegal aliens are not displacing 
constituents in----
    Ms. Waters. No, I didn't say that either. So you keep 
saying what the gentlelady said, but you're not framing it 
correctly. I think I first started out by saying you don't know 
and I don't know, because we don't have the information. We 
don't have the studies that have been done. People are----
    Mr. Hostettler. And the answer is----
    Ms. Waters. --alluding to it.
    Mr. Hostettler. --the gentlelady does not know about these.
    Ms. Waters. No. The answer is that the Chairman does not 
know.
    Mr. Hostettler. No. I know.
    Ms. Waters. Along with the gentlelady.
    Mr. Hostettler. No. I know wholeheartedly.
    Ms. Waters. Okay. I yield----
    Mr. Hostettler. Come on back to my district----
    Ms. Waters. Okay. All right.
    Mr. Hostettler. Tonight.
    Ms. Waters. Thanks for the time.
    Mr. Hostettler. So at this point, I want to thank the 
gentleman from New Mexico for his input in this very important 
subject. All Members will have 5 legislative days to make 
additions to the record. The business before the Subcommittee 
being completed----
    Ms. Jackson Lee. And may I, Mr. Chairman--if I would add my 
appreciation for the sticktoitness of the gentleman from New 
Mexico, and certainly appreciate the other Members that you 
have stuck it out. And we appreciate your testimony. It will be 
valued in this process, and we're going to get some jobs for 
the people that Congressman Waters and myself are talking about 
and the jobs for the Chairman and comprehensive immigration 
reform.
    Thank you, Mr. Chairman.
    Mr. Hostettler. Without objection, we're adjourned.
    [Whereupon, at 4:09 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

      Prepared Statement of the Honorable John Abner Culberson, a 
           Representative in Congress from the State of Texas

    Good afternoon, Chairman Hostettler, Ranking Member Ms. Jackson 
Lee, and members of the Subcommittee. Thank you for giving me the 
opportunity to appear before you to discuss the problem of illegal 
immigration and its effect on my congressional district and the State 
of Texas.
    I represent the 7th District of Texas, an area roughly 200 square 
miles that covers suburban west and northwest Houston. The problems 
that my district and Texas face are not unique to border States, but 
they are unique compared with other parts of the country. Roughly 1.5 
million illegal immigrants live in Texas. These illegal immigrants work 
in Texas, their children attend our schools, they use our public 
hospitals, and if they commit crimes--they are detained in our jails.
    What makes Texas unique to the rest of the country is the size of 
our border with Mexico; Texas borders Mexico for 1,240 miles along the 
Rio Grande. The length of the border presents unique challenges for 
communities and law enforcement along the border. In the past year, the 
numbers of Mexicans and OTMs has surged along with substantial 
increases in the quantity of drugs being moved across our southern 
border. The increases in human and drug trafficking are due, in part, 
to the fact that organized gangs and cartels now control the movement 
of people and drugs into the U.S. We have an obligation to address the 
problem now before the violence on the other side of the border spills 
over into our country, and irreparably damages the special relationship 
that Texas and Mexico have enjoyed for over a century. Congress must 
work to ensure that legislation is passed to secure our borders.
    I became particularly concerned with the issue of illegal 
immigration after a town hall meeting was held on April 25, 2004 by CIS 
and ICE officials in Houston to assure illegal immigrants that federal 
immigration laws would not be enforced. Hearing law enforcement 
officers assuage law breakers that our laws would not be enforced is 
completely unacceptable. After this meeting was held, I voiced my 
serious concerns to the Bush Administration, the leadership in 
Congress, and the committees of jurisdiction. Broadcasting the fact 
that Houston is a safe haven for illegal immigrants only encourages 
more illegals to come to Houston.
    The following month I visited the Houston CIS office and was 
shocked to find the policies and procedures employed in that office 
were contrary to the intent of immigration laws passed by Congress. I 
discovered that adjudicators do not have the tools needed to conduct 
background checks on immigration benefit applicants. I learned that not 
one adjudicator had been trained to detect a potential terrorist. I 
learned that adjudicators were granted time off and other incentives 
for rapidly processing applicants instead of being rewarded for 
conducting thorough background checks on applicants. I learned that 
marriage fraud was rampant. In general, I found that immigrants 
applying for legal status were treated as customers. The American 
taxpayer was not the customer, and in fact, the taxpayer was not even 
considered by CIS officials. Awarding the greatest privilege in the 
history of the world--American citizenship--without proper vetting and 
background checks cheapens that privilege. Therefore, I included report 
language in the FY2005 Homeland Security Appropriations Bill that 
sought to correct these policies:

                 IMPLEMENTATION OF CONGRESSIONAL INTENT

        The Committee is concerned that agencies of the Department are 
        not complying with Congressional intent, particularly in 
        carrying out homeland security missions and priorities. The 
        Committee directs that neither the Secretary nor any other 
        employee of the Department prescribe any policy, procedure or 
        regulation that would be contrary to or frustrate the intent of 
        Congress as expressed in law.

                   HOMELAND SECURITY MISSION PRIORITY

        The Committee is concerned that DHS agencies are not placing 
        top priority on their homeland security missions set forth in 
        the Homeland Security Act, but are in some cases giving more 
        weight to less urgent, legacy activities. It is the duty of 
        each officer and employee of each element of the Department to 
        protect the homeland of the United States, including by 
        ensuring that potential terrorist and criminal aliens do not 
        enter the United States. The Committee therefore directs the 
        Secretary to ensure that the policies and procedures of U.S. 
        Citizenship and Immigration Services, of U.S. Immigration and 
        Customs Enforcement, and every other element of the Department 
        of Homeland Security are consistent with this duty, and that 
        such requirements are made clear to each officer and employee 
        of the Department.

    After my visit to the Houston CIS office, I posed questions to the 
Homeland Security Inspector General Clark Kent Ervin. He began an 
investigation into the policies and procedures in the Houston office, 
but I have been unable to obtain a copy of the report. The two 
officials in Houston CIS and ICE who participated in the townhall 
meeting have been replaced. My goal is to continue working with federal 
immigration officials in Houston to fix the obvious security risks that 
are exacerbated by lax enforcement policies.
Border Security:
    Since the April town hall meeting, I have learned that Special 
Interest Aliens (SIAs)--aliens from countries where al-Qaeda is known 
to operate--have entered the United States illegally. I am particularly 
concerned that aliens from countries such as Iraq, Iran, Syria, 
Indonesia, and the Sudan are entering our country illegally. On March 
8, 2005 I questioned FBI Director Robert Mueller during a hearing 
before the House Science, State, Justice, Commerce Appropriations 
Subcommittee about SIAs entering the United States across the southern 
border and he testified under oath that this was in fact occurring. 
Specifically, he stated that ``[t]he FBI has received reports that 
individuals from countries with known al-Qaeda connections have 
attempted to enter the U.S. illegally using alien smuggling rings and 
assuming Hispanic appearances. An FBI investigation into these reports 
continues.'' SIAs are changing their Arabic surnames to Hispanic 
surnames to elude detection and blend into the flood of illegal 
immigrants coming across the southern border. I am convinced that our 
porous borders present the most serious national security threat that 
America faces.
    To gain a better understanding of the problems for communities and 
law enforcement on the border, I visited several cities along the 
Texas-Mexico border in October 2005. During my visit, I met with a 
number of sheriffs from the counties along the border. They briefed me 
in detail on several cases involving terrorist activity, narco-
terrorist activity, violent gangs such as MS-13, and the increased 
violence in their counties. I was very concerned to learn about the 
growing influence of drug cartels in Mexico and their hired guns, the 
Zetas. I also learned about the violence that is spilling over into 
U.S. cities like Laredo, Texas. In the last year, more than 40 American 
citizens have been killed or kidnapped in Laredo. In early 2005, 
Ambassador to Mexico Tony Garza issued a travel warning for all 
Americans visiting or working in Mexican border towns. This warning 
demonstrates the need for an increased number of Border Patrol agents 
and local law enforcement officers on the southern border. The presence 
and constant activity of narco-terrorists and human smugglers are 
directly related to the kidnappings and the travel warning, and they 
signify the lawlessness along the border.
    During my visit I also learned about the special status given to 
OTMs who enter the United States illegally. The number of OTMs 
apprehended along the Texas border has doubled in the last year and 
tripled since three years ago. Along the entire U.S.-Mexico border, the 
number of OTMs apprehended has increased 175 percent in the last year. 
The OTM problem is compounded by current policies that allow them to 
walk free after being detained and processed by the Border Patrol. OTMs 
are released because there is not enough jail space to detain them. 
Last week, Secretary Chertoff announced his intention to detain and 
deport every OTM apprehended at the border. Congress must ensure that 
DHS has adequate detention space and manpower to accomplish this task. 
The OTM problem can be fixed, but it will take additional resources, 
policy changes, and effective deterrence.
    Since returning to Washington from my trip to the border, I have 
spoken with many Members of Congress and shared the stories and 
pictures from my trip. I was not surprised to hear that many of them 
said they felt safer during trips to Iraq than they would have in a 
pickup truck on our southern border. The increased violence in towns 
such as Laredo is frightening. Business centers are closing down, 
tourism is declining, and the general population is demoralized by the 
level of lawlessness. I am now convinced that you do not need to go to 
Baghdad to see the war on terror--you can go to Laredo.
Costs of Illegal Immigration:
    According to a Federation for American Immigration Reform report 
issued earlier this year, illegal immigrants in Texas cost the State's 
taxpayers more than $4.7 billion per year for education, medical care 
and incarceration. The annual fiscal burden amounts to roughly $725 per 
Texas household.
    Texas public schools, like many schools around the country are 
overcrowded. After Hurricane Katrina, the citizens of Houston opened 
their doors to our neighbors in New Orleans. School districts in Harris 
County have taken in 14,000 students who were displaced because of the 
storm. Our schools are simply drowning in the number of students, and 
the burden on teachers and administrators is overwhelming. There are 
currently an estimated 319,000 children of illegal immigrants in Texas 
schools. This figure represents 10 percent of the total K-12 public 
school enrollment in Texas and the costs of educating these children 
has increased every year over the last ten years. In 1994 the Urban 
Institute estimated the per student cost of a K-12 education in Texas 
was $4,461. A 2000 report by the National Center for Education 
Statistics (NCES) estimated that the cost of educating the children of 
illegal immigrants was $6,288 per child. Since public school outlays 
have increased at least 10 percent since 2000, using the NCES data, it 
is reasonable to assume that the cost of educating a child of an 
illegal immigrant is $7,450 for this year. Education is paid for by 
property taxes in Texas. These taxes have reached an artificially high 
level and the Texas Legislature is looking for a solution to lower 
property taxes while continuing to provide public education that meets 
the standards set by No Child Left Behind. A solution can be found to 
the education crisis in Texas, but we cannot continue to bear the 
burden of educating the children of illegal immigrants.
    In March 2005, the Houston Chronicle reported that ``Over the past 
10 years, the [Harris county hospital] district has provided $510 
million in unreimbursed care to illegal immigrants.'' In the last three 
years alone, the Harris County hospital district has spent $330 million 
on care to illegal immigrants. Providing these services places a huge 
and unnecessary strain on taxpayers and creates an incentive for 
illegal aliens to come to this country and take advantage of the 
world's best hospitals. These costs are staggering and are only going 
to increase. In order to remove the burden from local taxpayers, 
Congress must continue to reimburse hospitals for this care, but to 
receive reimbursement for illegal immigrant care--hospitals must prove 
they have treated these aliens. In contrast to their unwillingness to 
provide information to federal immigration officials about illegal 
aliens for immigration purposes, states and localities have been 
willing to provide that information when seeking reimbursement from the 
federal government for the cost of medical care to illegal immigrants. 
Since hospitals are already asking the citizenship status of patients 
when they receive care, it seems reasonable that they contact federal 
immigration officials to alert them to the presence of these aliens. A 
program can easily be implemented that places no undue burden on 
hospitals and only requires cooperation with federal officials to be 
eligible for reimbursement.
    I am also concerned that ``sanctuary'' policies implemented by 
local law enforcement that harbors criminals and makes immigrant 
communities much more susceptible to violence and crime. The City of 
Houston has such a policy:

             HOUSTON POLICE DEPARTMENT GENERAL ORDER 500-05

        Officers shall not make inquires as the citizenship status of 
        any person, nor will officers detain or arrest persons solely 
        on the belief that they are in this country illegally. Officers 
        will contact the Immigration and Naturalization Service 
        regarding a person only if that person is arrested on a 
        separate criminal charge other than a class C misdemeanor and 
        the officer knows the prisoner is an illegal alien.

    General Order 500-05 provides a safe haven for criminals to hide 
among immigrants. In 1998, Dr. Claudia Benton was beaten, raped, and 
fatally stabbed in Houston by Angel Maturion Resendiz. Resendiz, also 
known as the Railway Killer, entered the U.S. illegally at least seven 
times in 1998 and had been deported seven times prior to the murder. On 
January 26, 2004, 18 year old Virginia Garcia was raped and murdered by 
David Diaz Morales in Austin, which has a police policy similar to the 
one in Houston. Morales, an illegal immigrant, had been previously 
arrested for child molestation. Many who support sanctuary policies 
claim that immigrants would be unwilling to contact local police if 
they were the victims of a crime out of fear that they themselves would 
be deported. That fear is nothing compared to the fear and resentment 
the families of Dr. Benton and Ms. Garcia have knowing that the murders 
of their loved ones could have been prevented simply by removing 
another barrier of communication between local and Federal law 
enforcement. Every community would benefit from taking criminals off 
the streets, and immigrant communities would benefit from not having 
criminals hiding among them. If Houston, or any other city, continues 
to receive Federal money for detaining illegal aliens, they should also 
be required to report illegal immigrants to DHS.
    I have heard an overwhelming plea from my constituents demanding 
that the federal government secure our borders and enforce immigration 
laws. My constituents feel the pressures of illegal immigration on 
their pocketbooks. They are tired of paying high property taxes to fund 
the education of illegal immigrants' children. They are tired of 
increased county taxes to provide health care to people who are not in 
this country legally. They are tired of criminals wandering their 
streets with no fear of prosecution because of policies established by 
police that allow them to hide among the population. Fortunately, my 
constituents have not experienced the level of violence that I 
witnessed in Laredo. The southern border is truly the frontlines of the 
war on terror because of the threat posed by al-Qaeda and criminal 
organizations. Mr. Chairman, with your help and the help of this 
Subcommittee, I hope that we can find a solution that will protect our 
borders and provide reasonable reimbursements to communities that are 
suffocating from the costs associated with illegal immigration.
    Thank you very much and I would be happy to answer any questions.
 Editorials Supporting Comprehensive Immigration Reform and the Secure 
America and Orderly Immigration Act of 2005, submitted by the Honorable 
                           Luis V. Gutierrez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
